<html>
<title> - HEARING ON PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 112-730]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-730

                  NOMINATIONS OF THE 112TH CONGRESS, 
                         SECOND SESSION, PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

79-636 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director








                            C O N T E N T S

                              ----------                              

                           December 12, 2012
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Sanders, Hon. Bernard, U.S. Senator from Vermont.................     4
Boozman, Hon. John, U.S. Senator from Arkansas...................     5
Tester, Hon. Jon, U.S. Senator from Montana......................     7
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    67
Begich, Hon. Mark, U.S. Senator from Alaska......................    69

                               WITNESSES

Menendez, Hon. Robert, U.S. Senator from New Jersey..............     5
Greenberg, William S., Nominee to be Judge, U.S. Court of Appeals 
  for Veterans Claims............................................     8
    Prepared statement...........................................     9
    Response to prehearing questions submitted by Hon. Richard 
      Burr.......................................................    10
    Questionnaire for Presidential nominees......................    21
    Supplemental questionnaire...................................    30
    Letter from the Judicial Conference of the United States.....    42
Kelly, Keith C., Nominee to be Assistant Secretary of the 
  Veterans' Employment and Training Service, U.S. Department of 
  Labor..........................................................    42
    Prepared statement...........................................    44
    Response to prehearing questions submitted by:
      Hon. Patty Murray..........................................    46
      Hon. Richard Burr..........................................    48
    Questionnaire for Presidential nominees......................    52
    Letter from the Office of Government Ethics..................    58
    Letter to the Office of General Counsel, U.S. Department of 
      Veterans Affairs...........................................    59

                                APPENDIX

McGlew, Charles, Founder, Workforce Data Services LLC; letter....    75

 
                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room 418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Sanders, Tester, Begich, Burr, 
Isakson, and Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning. I welcome all of you to 
today's hearing to consider the nominations of William 
Greenberg, to be judge of the U.S. Court of Appeals for 
Veterans Claims, and Keith Kelly, to be Assistant Secretary of 
the Veterans' Employment and Training Service at the Department 
of Labor. I am very pleased this morning to welcome our 
nominees and their families and I congratulate each one of you 
on your nomination.
    The nominees sitting before us have strong credentials and 
a history of service. Because we will learn more about their 
qualifications during their introductions, I will not spend 
time repeating what you will hear shortly, but I would, 
however, like to briefly discuss the positions for which these 
two gentlemen have been nominated and the challenges they are 
going to face.
    Veterans and Members of this Committee know all too well 
the problems confronting the disability claims system, and we 
know that it still takes VA too long to address these 
decisions. We know that VA's error rate remains too high. We 
know that the number and complexity of claims being filed 
continues to grow. And we also know that the Court of Appeals 
for Veterans Claims occupies a unique position as the only 
national court that reviews veterans' benefit decisions. As a 
result, the problems that have for far too long plagued the 
disability claims system become the problems of the court.
    Mr. Greenberg, if confirmed, you will be confronted with 
these problems. There is no shortage of potential cases that 
may reach the court in the very near future and you will be 
asked to carry a substantial workload. You also must know that, 
for many veterans, the court is seen as their last hope after 
fighting for months, years, and in some cases decades, to 
obtain the benefits that they have earned. They look to the 
court for a fair and equitable resolution of their claim. That 
is why any nomination to the Court of Appeals for Veterans 
Claims is of such great importance and why any vacancy must be 
filled with a qualified, competent, and motivated individual.
    So let me turn to the importance of the role of Assistant 
Secretary for the Veterans' Employment and Training Service. 
With the high rate of unemployment among our young veterans and 
the continued draw-down of troops in Afghanistan, ensuring 
servicemembers have the tools and resources needed to succeed 
in the civilian workforce has never been more important. The 
Department of Labor plays a critical role in this process. It 
provides servicemembers with employment and training 
information through TAP, monitors and develops local employment 
and training opportunities for veterans in its Jobs for 
Veterans State Grants Programs, and investigates allegations of 
wrongdoing under USERRA.
    Mr. Kelly, if confirmed, you will be responsible for 
overseeing these programs and addressing the current employment 
and training needs of our veterans. Our veterans have the 
leadership ability, discipline, and technical skills to not 
only find work, but to excel in the civilian workplace. But 
despite all that, we still have a double-digit unemployment 
rate for our veterans. These veterans cannot find a job to 
support their families, do not have an income they need for 
stability, and they do not have work that provides them with 
the self-esteem and pride that is so critical to their 
transition home.
    To help address this issue, I introduced and the President 
signed into law the bipartisan, bicameral, and comprehensive 
VOW to Hire Heroes Act of 2011. Among other things, this law 
calls on DOL to partner with Federal, State, and industry 
officials to eliminate the barriers preventing veterans from 
using their military training to acquire the licenses and 
credentials needed for civilian employment. I have heard from 
countless veterans in my homestate of Washington and throughout 
the country who have been turned away by employers for not 
having the proper civilian licenses and certifications, and 
that should not be the case. The Department of Transportation 
is now setting an example by working with stakeholders to 
overcome the barriers that prevent veterans from successfully 
transitioning from military service to careers in the 
transportation industry.
    Mr. Kelly, if confirmed, I want to see VETS take on a more 
active role in addressing licensure and certification issues.
    I also want to take a minute to talk about public-private 
partnerships. I have been urging companies, large and small, to 
provide employment opportunities for America's veterans. I have 
asked them to educate their human resources teams about the 
benefits of hiring our veterans and how skills learned in the 
military actually translate into work a company does. I have 
asked them to provide job training and resources for 
transitioning servicemembers, to publicize job openings with 
Veterans Service Organizations, at local military bases to help 
connect veterans with actual jobs, and to work with local one-
stop career centers to develop an internal veterans' group to 
mentor recently discharged veterans, and to reach out to local 
schools to help develop a pipeline of the many veterans that 
are using our G.I. Bill.
    I am concerned that VETS has not taken an active enough 
role in developing these very critical private-public 
partnerships, and if confirmed, I would like to see you change 
that.
    So I look forward to hearing your testimony this morning 
and I look forward to learning more about your qualifications 
for the positions for which you have been nominated, and with 
that, I would like to turn it over to Ranking Member Burr for 
his opening statement.

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Good morning, Madam Chairman, and welcome to 
you and to my colleagues.
    I want to also welcome our nominees, Mr. Kelly and Mr. 
Greenberg, thank you both for your willingness to serve this 
country. Today, the Committee will discuss your qualifications 
to fill positions that can significantly impact the lives of 
our Nation's veterans, their families, and their survivors.
    To start with, the Assistant Secretary for Veterans' 
Employment and Training will lead an organization that 
administers employment and training programs for veterans, 
provides transition assistance to separating servicemembers, 
and helps enforce laws that protect employment rights of 
military personnel. Mr. Kelly, I appreciate your willingness to 
take the challenge and to serve in this role and I enjoyed the 
time that we spent together yesterday.
    As you know, some of our Nation's veterans are facing an 
unemployment crisis. Even though there have been improvements, 
the unemployment rate for Gulf War II-era veterans still stands 
at 10 percent, and the unemployment among our youngest veterans 
is even worse. That is the case even though many of these 
servicemembers leave the military with skills and training that 
should be easily transferable to civilian employment. But each 
State has different requirements that veterans may have to meet 
to obtain the licenses and credentials that they need for a 
civilian career. You and I talked about this yesterday.
    Because that can hinder their efforts to get a job, I 
introduced S. 3353, which would require each State to offer a 
test to veterans who have ten or more years of experience in an 
occupational field while in the military. If they pass the 
test, they would immediately be granted the needed license or 
credentials without additional training, without going through 
an apprenticeship.
    Mr. Kelly, I look forward to working with you on this and 
other ways that we can break down the barriers that our 
veterans face when trying to translate their skills to a 
civilian career. This can be done, and I look forward to 
working with you.
    This agency also oversees the Transition Assistance 
Program, or TAP, which is supposed to help provide military 
personnel with the information they need to navigate the 
civilian job market. For the first time in 20 years, TAP has 
been redesigned to try to make it relevant to the 21st century 
military personnel. A key function of the Assistant Secretary 
will be to ensure that these changes are actually effective in 
meeting the needs of transitioning servicemembers.
    On top of that, I am sure you know that this agency 
experienced significant turmoil during the last 18 months after 
serious procurement irregularities were revealed by the 
Inspector General. I hope you will agree that helping to 
rebuild that workforce and public image and to ensure that 
these problems are not repeated should be among our top 
priorities.
    Turning to you, Mr. Greenberg, the judges of the Court of 
Appeals for Veterans Claims provide justice to sick and injured 
veterans, their families, who may have already faced years of 
delays and frustrations while seeking benefits from the VA. The 
judges also issue precedential decisions that can have 
nationwide impact on VA claims processing systems and on 
individuals trying to navigate that system. Given these 
important responsibilities, candidates to serve on the court 
must be impartial, well qualified, and have sound judicial 
philosophy and temperament. They must be prepared to make 
decisions fairly, promptly, and efficiently. For this court, in 
particular, which has more than 4,000 pending cases, a new 
judge must be ready to hit the ground running and immediately 
help the court address the challenges that they face with 
caseload.
    I also want to point out that, in my view, organizations 
tend to function at their best when the integral parts to the 
operation, like judges, are personally engaged on a daily 
basis. But if judges have to travel long distances to get to 
court, it could make it more difficult. That is why I 
introduced S. 2045, and my hope is that this will pass this 
body quickly, because it would require that judges of the 
Veterans Court live within 50 miles of the D.C. area, where the 
court is located. A similar residency requirement already 
applies to other Federal judges.
    This bill is simply intended to stress that judges should 
live near enough to the court to allow them face-to-face 
discussions with other judges and allow the judges to be 
personally involved in the day-to-day operations of their 
chamber and the court. In my view, these expectations are 
completely in line with the Code of Conduct for U.S. Judges, 
which requires that, ``duties of judicial office take precedent 
over all other activities.'' Madam Chairman, I think this is a 
bill that is simply common sense and I hope the U.S. Senate 
will pass it quickly.
    I want to thank the Chair and again thank the nominees for 
their willingness to be here, and I recognize our colleague, 
Senator Menendez, who is a big champion of Mr. Greenberg.
    Chairman Murray. Thank you very much.
    Senator Sanders, do you have an opening statement?

              STATEMENT OF HON. BERNARD SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. I will be very brief because I think 
Senator Murray and Senator Burr made the point that it just so 
turns out that both of you, while strong nominees, are being 
asked to address some of the most serious issues facing the 
veterans' community.
    It is no secret that there is a backlog in terms of benefit 
claims. Our goal must be justice, making sure that those people 
who are entitled to the claims get them. But equally important, 
it must be done in an expeditious manner. I know that the VA is 
wrestling with this problem and have gone forward, but we have 
more work to do and that court that you are applying for, Mr. 
Greenberg, is certainly an important part of that whole 
process.
    And, Mr. Kelly, in terms of employment, we are in the midst 
of a major recession. Unemployment is much too high. But as 
Senator Murray indicated and as Senator Burr made the point, it 
is especially high for returning veterans. So we have people 
who, in some cases, in my State, where we had a National Guard 
playing a very, very active role, both in Iraq and Afghanistan, 
folks left their jobs and went away and came back, and in some 
cases those jobs were not there for them.
    So I think, as a Nation, we have an absolute obligation to 
do everything that we can to make sure that people who serve 
this country get decent jobs, that we take advantage--and I 
think Senator Burr made an important point--people receive a 
lot of training in the military and it is an absolute shame 
that we do not utilize that training to help them into the 
civilian sector.
    So there is a lot of work in both of the areas that you are 
applying for and I thank you very much for applying for these 
jobs.
    Chairman Murray. With that, Senator Boozman, do you have an 
opening statement?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Briefly, I look forward to Mr. Greenberg's 
testimony. I had a good visit with Mr. Kelly and was really 
impressed with a number of ideas that he has to try to address 
some of the problems that you all brought up. So, again, like I 
said, I look forward to your testimony.
    Chairman Murray. All right. Senator Tester, do you have an 
opening statement beyond what we are going to have you do in a 
few minutes to introduce Mr. Kelly?
    Senator Tester. I will do that when you tell me to. 
[Laughter.]
    Chairman Murray. OK.
    Senator Tester. I would just say one thing, Chairman 
Murray, before we start with this hearing, and that is today is 
the 12th day of the 12th month of 2012, and this may be our 
last Veterans' Affairs Committee meeting. I just want to thank 
you for your vision and your leadership for these 2 years.
    Chairman Murray. Well, Senator Tester, I appreciate that 
very much. And my grandson is turning 12 today, so it is a very 
amazing day in my family, as well. He has only been counting 
days until this day for, like, 8 years, so----
    [Laughter.]
    Chairman Murray. Thank you very much. I appreciate it.
    With that, Senator Menendez, I will turn it over to you for 
your introduction.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Madam Chair and Senator 
Burr and distinguished Members of the Committee, and I hope 
this is not your last meeting because I hope you have a 
business meeting to be able to vote out these nominees.
    I am pleased to be here today to introduce a friend and a 
fierce advocate for the men and women who have served in 
uniform. Retired Brigadier General William Greenberg is about 
as passionate and committed to our veterans as anyone I have 
ever met. He does not just talk the talk, he walks the walk. He 
has stood for veterans and shown courage in living his values.
    I have known Bill Greenberg and his wife, Tina, for a 
couple decades, and I have always known him to be a man who has 
never been afraid to speak truth to power. He has had several 
distinguished careers: soldier, lawyer, author, professor, 
public servant, and he has excelled in each of them.
    In 2009, he was appointed by the Secretary of Defense and 
approved by the President to be Chairman of the Reserve Forces 
Policy Board, where he received the Secretary of Defense Medal 
for Distinguished Public Service and the praise of his 
colleagues.
    When he began his career in 1967, he was selected as the 
Outstanding Cavalry Trooper of the Training Cycle at Fort Knox. 
He later was commissioned in the Judge Advocate General Corps 
in 1970 and served in various JAG positions in the Reserves, 
until his promotion to flag rank in 1990. He is a partner in 
one of New Jersey's oldest and the region's most respected law 
firms, McCarter and English.
    He has served as a New Jersey State Commissioner of 
Investigation, Assistant Counsel to the Governor of New Jersey, 
Trustee of the New Jersey State Bar Association, and their 
first Adjunct Professor of Military Law at Seton Hall 
University School of Law. He received the Distinguished Alumnus 
Award from Johns Hopkins in 2010, the Rutgers Law School Alumni 
Association Prestigious Public Service award. But those long 
lists of accomplishments do not tell the real story and the 
real commitment of Brigadier General Bill Greenberg.
    In June 2009, Bill received the highest award of the New 
Jersey State Bar Foundation's Medal of Honor for his tireless, 
extraordinary work with wounded soldiers at Walter Reed. What 
he has done to stand up for veterans, no matter who he had to 
engage or how powerful they might have been, he did what he 
believed needed to be done for the people he served, and that 
is an extraordinary measure.
    During the last several years, he has personally, and 
together with members of the firm that he put together, 
represented pro bono more than 50 soldiers in hearings at 
Walter Reed and elsewhere to make certain that they received 
all the care and help for their combat wounds and injuries that 
they deserved.
    He cares deeply and profoundly about the men and women who 
have served in this Nation. He has demonstrated a combination 
of public service and private accomplishment to which all 
citizen soldiers should aspire.
    General Greenberg has dedicated himself to the highest 
ideals of our Nation, among them, making sure that those who 
are wounded in service to this Nation are treated with nothing 
less than the utmost care and with the fairness and dignity 
that they have earned and deserve.
    Madam Chairman and Members of the Committee, I cannot think 
of a more qualified citizen soldier to preside over matters 
concerning the men and women he has devoted a lifetime to 
helping. I am proud of his service, proud that he is from New 
Jersey, honored to call him a friend. He has the intellect, the 
experience, the judicial temperament, and the respect for 
precedent that would make him an extraordinary member of the 
court. I look forward to his, I hope, unanimous support in the 
Senate and for him to get to work on behalf of our veterans.
    Thank you, Madam Chairman.
    Chairman Murray. Thank you very much, Senator Menendez. We 
really appreciate your coming and introducing him.
    Senator Tester, I turn to you for your introduction of Mr. 
Kelly.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, thank you, Madam Chair. It is my honor 
to introduce a good friend of mine, Keith Kelly. I want to 
thank Keith for being here today and thank you for your 
service.
    Keith and I have known each other for a long, long time. It 
has not been 35 years. As I was doing the math in my head, it 
has been 31 years since I first met Keith, when I was younger 
and he was younger, too. I had the good fortune to work with 
him when I was in the State Legislature. His lovely wife, Norma 
Jean, is not here, but be sure to send her my best.
    Currently, Keith is Commissioner of Montana Labor and 
Industry. In that role, he works hard to promote the well-being 
of Montana's workers.
    Keith is also a veteran. He served in the U.S. Army in the 
Vietnam War, earned a Combat Infantry Badge and a Bronze Star.
    After returning from military service, Keith began 35 years 
in public service. He has served as Director of both Montana's 
and Arizona's Department of Agriculture. Under President 
Clinton, he served as a National Administrator for the Farm 
Service Agency. By all accounts, Keith has done a great job in 
all of the positions that he has held and he has valuable 
experience dealing with issues from the local, State, and 
Federal perspective.
    I know that he has always been mindful, in particular, of 
the needs of our Nation's veterans. If confirmed, I have no 
doubt that he will do absolutely everything within his power to 
ensure that we fulfill our commitment to the promises that we 
have made our veterans and their families.
    So, Keith, I want to once again thank you for your public 
service, for your record in that; I want to thank you for 
putting yourself through this exercise for confirmation, and 
thanks for being here today.
    Chairman Murray. Thank you very much, Senator Tester.
    Mr. Kelly, I understand your family is cheering you on from 
home, so they are not with you, but Mr. Greenberg, I understand 
you do have some family members here. If you would like to 
introduce them, we would love to----
    Mr. Greenberg. Yes. There are some at home, but my wife, 
Tina, is here and my son, Tony, who works in Washington, is 
also here today.
    Chairman Murray. All right. Great. Well, thank you very 
much.
    Mr. Kelly, I understand your family is at home cheering you 
on.
    Mr. Kelly. Yes, and thank you. I hope they are, yes. 
[Laughter.]
    Chairman Murray. All right. With that, under the rules of 
this Committee, the testimony of all Presidential nominees 
appearing before the Committee has to be taken under oath. So, 
Mr. Greenberg and Mr. Kelly, I would like you to stand right 
now and we will administer the oath. Please raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Greenberg. I do.
    Mr. Kelly. I do.
    Chairman Murray. Thank you very much. You may be seated.
    Mr. Greenberg, we will start with your testimony, and then 
we will turn to Mr. Kelly.

 TESTIMONY OF WILLIAM S. GREENBERG, NOMINEE TO BE JUDGE, U.S. 
              COURT OF APPEALS FOR VETERANS CLAIMS

    Mr. Greenberg. Thank you, Chairman Murray, Ranking Member 
Burr, and distinguished Members of the Committee. I would like 
to thank Senator Menendez, also, for his very kind and gracious 
words. We do go back a long way.
    I am honored to have been nominated by the President to be 
a judge of the U.S. Court of Appeals for Veterans Claims, and I 
am grateful for the opportunity to appear before you today.
    With me, as I have just indicated, is my wife, Tina, who 
has been my best friend, partner, and principal support 
throughout my professional life and whose tireless generosity 
of spirit and family history of philanthropy have been shining 
examples to our three children--our daughters, Katherine and 
Elizabeth, and our son, Anthony, who is with us today. I am 
indebted to all of them for love, patience, and confidence.
    I also wish to acknowledge my large extended family, law 
partners, and clients for their enthusiastic support of my 
nomination. I would like to pay special tribute to those who 
have served as exemplars over my long legal and military 
career. To Judge Robert A. Matthews, for whom I served as a Law 
Secretary, a Navy war hero who reminded me always to act in the 
name of the ethic, which gives meaning to it all. To Frank 
McCarter, a veteran of the Italian Campaign; Gene Haring and 
John McGoldrick, partners and mentors at McCarter and English; 
to Richard J. Hughes, Governor and later Chief Justice of New 
Jersey, from whom I learned the meaning of political and legal 
courage; and finally, to Major General Frank Gerard, the last 
active duty air ace of World War II, for whom I served as 
military subordinate, legal advisor, and advocate.
    In a larger sense, I owe my career to the example set by my 
father, uncles, and great-uncles, as well as my brother, all of 
whom served in the Armed Forces. Some were in combat, and 
others, like my father, Master Sergeant Irving Greenberg of the 
Medical Service Corps, and brother Major Stephen Greenberg of 
the Medical Corps, served those who bore the physical and 
psychological wounds of battle.
    During my 27 years in the Reserve components of the Army, I 
was an enlisted scout, an Army lawyer, and a flag officer. With 
that experience and my nearly four decades of private law 
practice, I recognized a need after the events of September 11 
and established the New Jersey Military Law Institute and the 
New Jersey State Bar Association Legal Assistance Program.
    During the past 10 years, I have been privileged to guide 
both endeavors in the pro bono service of Reservists wounded in 
Iraq and Afghanistan. We at New Jersey's oldest and largest law 
firm took the lead, together with the organized Bar, in 
representing these soldiers in their physical evaluation board 
hearings at Walter Reed and their claims in the regional 
offices of the Department of Veterans Affairs. I personally 
tried cases and supervised the work of our firm in dozens of 
matters over the past decade. Many of the lawyers who work with 
me had no prior military experience, but quickly gained the 
confidence of the soldier and were themselves rewarded by a 
strong sense of their unique accomplishment. There is no 
substitute for individual personal relationships between lawyer 
and soldier or veteran.
    During my 45 years of private law practice, I have been 
fortunate to have served in many other facets of life, which I, 
with great respect, believe will serve me well if I am 
confirmed. I have been a Commissioner of the New Jersey State 
Commission of investigation, Chairman of the New Jersey State 
Bar Association Judicial and Prosecutorial Appointments 
Committee, the first Adjunct Professor of Military Law at the 
Seton Hall University, President or Trustee of New Jersey's two 
largest Bar Associations, a member of the New York City Bar 
Association Committee on Law and Justice, and more recently as 
Chairman of the Reserve Forces Policy Board in the Office of 
Secretary of Defense.
    I have always been an advocate for the soldier and the 
veteran. My entire legal career has been in litigation, 
advising clients, and representing them before agencies and in 
courts. I believe I understand the importance and significance 
of becoming a judge of the U.S. Court of Appeals for Veterans 
Claims.
    I fully comprehend the responsibility of that honored 
position. If confirmed, I believe I would apply the same 
zealousness and intellectual vigor as a judge that I have as 
counsel. I am equally certain that I will be true to the oath 
requiring swift, fair, and impartial appellate review.
    I thank the Committee most sincerely for considering my 
nomination. Chairman Murray, I am pleased to respond to any 
questions you or any Member of the Committee may have. Thank 
you.
    [The prepared statement of Mr. Greenberg follows:]
 Prepared Statement of William S. Greenberg, Nominee for Judge of the 
               U.S. Court of Appeals for Veterans Claims
    Thank you Chairman Murray, Ranking Member Burr, and distinguished 
Members of the Committee. I am honored to have been nominated by the 
President to be a Judge of the United States Court of Appeals for 
Veterans Claims and I am grateful for the opportunity to appear before 
you today.
    With me is my wife, Tina, who has been my best friend, partner, and 
principal support, throughout my professional life and whose tireless 
generosity of spirit and family history of philanthropy have been 
shining examples to our three children, Katherine, Anthony, and 
Elizabeth. I am indebted to all of them for love, patience, and 
confidence. I also wish to acknowledge my large extended family, law 
partners, and clients for their enthusiastic support of my nomination.
    I would like to pay special tribute to those who have served as 
exemplars over my long legal and military career. To Judge Robert A. 
Matthews, for whom I served as Law Secretary, a Navy war hero who 
reminded me always to act in the name of the ethic, which gives meaning 
to it all. To Frank McCarter, a veteran of the Italian Campaign, Gene 
Haring, and John McGoldrick, partners and mentors at McCarter and 
English. To Richard J. Hughes, Governor and later Chief Justice of New 
Jersey, from whom I learned the meaning of political and legal courage. 
And finally, to Major General Frank Gerard, the last active duty air 
ace of World War II for whom I served as military subordinate, legal 
advisor, and advocate.
    In a larger sense, I owe my career to the example set by my father, 
uncles and great uncles, as well as my brother, all of whom served in 
the Armed Forces. Some were in combat, and others like my father, 
Master Sergeant Irving Greenberg of the Medical Service Corps, and 
brother Major Stephen Greenberg of the Medical Corps served those who 
bore the physical and psychological wounds of battle. During my twenty-
seven years in the Reserve Components of the Army, I was an enlisted 
scout, an army lawyer, and a flag officer. With that experience, and my 
nearly four decades of private law practice, I recognized a need after 
the events of September 11, and established the New Jersey Military Law 
Institute and the New Jersey State Bar Association Legal Assistance 
Program. During the past ten years, I have been privileged to guide 
both endeavors, in the pro bono service of reservists wounded in Iraq 
and Afghanistan. We at New Jersey's oldest and largest law firm took 
the lead, together with the organized Bar, in representing these 
soldiers in their Physical Evaluation Board hearings at Walter Reed, 
and their claims in the regional offices of the Department of Veterans 
Affairs. I personally tried cases and supervised the work of our firm 
in dozens of matters over the past decade. Many of the lawyers who 
worked with me had no prior military experience but quickly gained the 
confidence of the soldier and were themselves rewarded by a strong 
sense of unique accomplishment. There is no substitute for the 
individual personal relationship between lawyer and soldier or veteran.
    During my forty-five years of private law practice, I have been 
fortunate to have served in many other facets of life which I 
respectfully believe will serve me well if I am confirmed. I have been 
a Commissioner of the New Jersey State Commission of Investigation, 
Chairman of the New Jersey State Bar Association Judicial and 
Prosecutorial Appointments Committee, the first Adjunct Professor of 
Military Law at Seton Hall University Law School, President or Trustee 
of New Jersey's two largest Bar Associations, a member of the New York 
City Bar Association Committee on Military Law and Justice, and more 
recently as Chairman of the Reserve Forces Policy Board in the Office 
of the Secretary of Defense.
    I have always been an advocate for the soldier and the veteran. My 
entire legal career has been in litigation, advising clients and 
representing them before agencies and in courts. I believe I understand 
the importance and significance of becoming a Judge of the United 
States Court of Appeals for Veterans Claims. I fully comprehend the 
responsibility of that honored position. If confirmed, I believe I 
would apply the same zealousness and intellectual vigor as a judge, as 
I have as counsel. I am equally certain that I will be true to the oath 
requiring swift, fair, and impartial appellate review.
    I thank the Committee most sincerely for considering my nomination.

    Chairman Murray, I am pleased to respond to any questions you or 
any Member of the Committee may have.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Richard Burr to 
 William S. Greenberg, Nominee to be Judge, U.S. Court of Appeals for 
                            Veterans Claims
                                 public
    Question 1. According to the questionnaire you submitted to the 
Committee, you were admitted to practice before the U.S. Department of 
Veterans Affairs (VA) in approximately 2010. It also reflects that you 
have represented military personnel involved in a medical evaluation 
board (MEB) or physical evaluation board (PEB).
    A. Would you please describe approximately how many claimants you 
have represented before VA and the general nature of the cases you have 
handled?
    Response. Our firm, McCarter & English, has represented 
approximately, pro bono, 70 to 80 soldiers or veterans. Of these, 
approximately 10 to 20 at the regional offices of the VA. While I had 
general supervisory responsibility for each of these cases, the VA 
matters were handled directly by my partners with the aid of 
associates.

    B. Would you please describe any training you have completed in the 
area of veterans' law?
    Response. My training has been on the job training, including 
developing a knowledge of VA procedures and practices, as well as a 
comprehensive review of the case law, in preparation for teaching the 
Veterans Rights portion of the Seton Hall Military Law Course, and as 
the partner in charge of our individual cases.

    C. Would you please describe approximately how many servicemembers 
you have represented at the MEB phase of the disability evaluation 
process and at the PEB phase and the general nature of the cases you 
handled?
    Response. I had personal responsibility for approximately 10 to 20 
of the PEB cases. I personally appeared at the hearings before the 
physical disability board at Walter Reed in approximately 10 cases 
between June 2007 and August 2009. I believe we were able to settle 
many other cases without appearing in person. I believe lawyers were 
not expected, nor permitted at the MEB stage. I believe that has 
changed recently. During the period 2009 through 2011, while serving as 
Chairman of the Reserve Forces Policy Board in the Office of the 
Secretary of Defense, I did not think it appropriate to personally 
represent individual soldiers or veterans in individual cases.

    Question 2. The United States Court of Appeals for Veterans Claims 
generally hears appeals from claimants seeking benefits from VA.
    A. How has your background equipped you to serve as an appellate 
judge?
    Response. I believe, respectfully, that I am qualified to serve as 
an appellate judge because of my personal representation of individual 
soldiers and veterans over the past 5 years; my 45 years of private law 
practice in trial and appellate courts, at the state and Federal 
levels; my experience as Chairman of the New Jersey State Bar 
Association Judicial and Prosecutorial Appointments Committee; and my 
27 years as an enlisted, officer and flag officer in the Reserve 
Components of the Army.

    B. Have you previously sought any other judicial positions? If so, 
please explain.
    Response. While I did not seek judicial positions, I was invited to 
participate as a candidate for Federal judicial positions by United 
States Senators from New Jersey in 1978, 1998, and 2002.

    Question 3. A biography published on the Web site for McCarter & 
English indicates that you have ``written regularly for legal 
periodicals and other publications'' and ``authored more than twenty 
five articles or monographs on litigation matters.''
    A. Would you please identify the legal periodicals and other 
publications for which you have written, other than those identified in 
your completed questionnaire?
    Response. None of the periodicals or publications referred to were 
written during the past 10 years, with the exception of the June 2007 
article in New Jersey Lawyer (attached below).
    Also, if it may be response I also assisted in the creation of a 
video to educate returning reservists about their legal rights. The 
video can be seen at: http://www.
njsba.com/resources/probono/military-legal-assistance/index.html
    The articles generally refer to materials distributed as part of 
presentations at professional conferences and included a wide variety 
of subject matters. I do not presently have access to those articles or 
materials. To the best of my recollection, they were presentations at 
meetings of the young lawyers or litigation sections of the American 
Bar Association, and on matters covering environmental litigation for 
the natural resources section of the ABA. I lectured at the New Jersey 
Institute for Continuing Legal Education, and prepared articles or 
materials related to those lectures on a wide variety of subjects 
including Trying the Constitutional Tort Case, Trying the School Law 
Case and Dealing or Litigating with the Resolution Trust Corporation. I 
also prepared materials for, and lectured at, annual meetings of the 
International Bridge Tunnel and Turnpike Association, generally related 
to environmental litigation. I also believe I wrote for, and lectured 
to, meetings of the New Jersey Education Association, and the 
Association of Trial Lawyers of America, and its New Jersey affiliate.
            Attachment--June 2007 article, New Jersey Lawyer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    B. If any of those writings were during the past ten years, please 
provide copies to the Committee.
    Response. I believe the only writing during the past 10 years is 
attached. The Committee should also know that during the past 10 years 
as author, editor, and supervisor of the editorial staff, I devoted 
considerable time and energy to revisions and annual supplements of the 
New Jersey Practice Series, Volume 47, Civil Trial Handbook, published 
by Thomson Reuters, and now approximately 1400 pages, including the 
cumulative annual supplement.

    Question 4. In response to question 6 of the Supplemental 
Questionnaire, you noted a number of significant cases in which you 
were involved. If applicable, would you please also describe at least 
five significant litigated matters in which you were involved during 
the past 10 years?
    Response. Five significant matters I have served as lead counsel or 
co-counsel in the past 10 years are:

          (a) HealthNet ads. Wachtel, a lengthy and complicated class 
        action in Federal court in New Jersey, and at times in the 
        third circuit, involving many issues related to the business 
        practices of our client, a large HMO;
          (b) RobertPlan ads. New Jersey Insurance Commissioner, a 
        complex series of matters involving contract and constitutional 
        issues between our client, an automobile insurer, and New 
        Jersey regulators, at times in state, trial and appellate 
        courts;
          (c) Verizon Wireless ads. Demmick, a class action pending in 
        Federal court in New Jersey concerning billing disputes in the 
        telecommunications business;
          (d) Ullman vs. ExpressScripts, a large breach of contract 
        dispute, involving pharmacy benefit managers in the Federal 
        district court in New Jersey;
          (e) Phelps Dodge ads. Reichhold, lengthy litigation involving 
        contribution issues under Federal environmental laws in the 
        district of New Jersey.

    Each of these cases required me to learn or concentrate on 
particular aspects of substantive law and differing factual settings. 
The common thread throughout was the intense participation by the 
clients, and the requirement of my personal involvement and 
responsibility on a regular basis.

    Question 5. In response to question 13 of the Committee's 
Supplemental Questionnaire, you indicated that, as Chairman of the 
Reserve Forces Policy Board from 2009 to 2011, your goal was to 
``change the way in which health of the command was addressed'' and 
that you had ``urged radical changes in the way wounded/injured 
soldiers were treated.''
    A. Would you please share with the Committee what you perceived as 
the drawbacks of the then-current system and your ideas for change?
    Response. Based upon my personal experience representing individual 
soldiers, as well as the knowledge I gained from presentations made to 
the RFPB by medical professionals, I believe the following were 
drawbacks of the then-current system, and I suggested the following 
changes:

          (1) the physical disability boards, as such, should be 
        abolished and the percentage basis for compensating a soldier 
        as medically unfit should also be abolished. I believe the 
        medically unfit soldier should received 100% compensation. The 
        soldier was either fit or unfit to remain in the military;
          (2) I believe a greater effort should have been made to 
        retain soldiers in uniform, notwithstanding physical or 
        psychological issues. Changes in military occupation specialty 
        or even changes in branches of the service, or transfers to 
        other armed services, is preferable to discharge, for those who 
        wish to stay;
          (3) Lawyers should be provided at the earliest stages of the 
        military medical evaluation process and carried through the 
        administrative agency and court systems;
          (4) The warrior transition units should be abolished 
        completely, and the individual soldier should be under the 
        direct command of the military hospital or the responsibility 
        of his reserve unit commander;
          (5) Provision should be made for reserve unit commanders to 
        receive pay, allowances, and travel to superintend the care and 
        treatment of members of their command;
          (6) The determination of percentage disabilities, if they are 
        to be retained, should never be reduced, but only increased if 
        the soldier makes a case for a change in circumstances.

    B. Under your leadership, what effect did the Reserve Forces Policy 
Board have on those issues?
    Response. I believe the recommendations we made in our annual 
reports for 2010 and 2011, reports required by Congress, had a direct 
bearing on the way in which the physical evaluation board process has 
been administered by the military. Lawyers are involved earlier. 
Important psychological issues such as TBI and PTSD are now more easily 
dealt with by the soldier. Specifically, the practice of giving only 
one percentage rating per part of the body has been abolished.

    Question 6. The 2010 Annual Report of the Reserve Forces Policy 
Board contains the following information about a November 2009 meeting 
of that Board:

          Hon. W. Scott Gould, Deputy Secretary of Veterans Affairs, 
        was particularly knowledgeable and forceful in his formal 
        presentation to the Board. Of particular interest and 
        enlightenment for Secretary Gould and the Board members were 
        the exchanges which took place among Board members, the Deputy 
        Secretary and his staff, and other well-informed officials of 
        the Department who attended the public session of this meeting.
          These exchanges led to the continuation of a very detailed 
        dialog among Chairman Greenberg, former Chairman O'Connell, 
        Deputy Secretary Gould and Secretary of Veterans Affairs, the 
        Honorable Eric K. Shinseki. This led to a further exchange of 
        memoranda on the subject of the status of deployed reservists, 
        and ultimately to a decision to elevate the consideration of 
        these issues to the Deputy Secretary level in each department. 
        This led to the pilot DES program, endorsed elsewhere in this 
        report.

    A. Would you please describe the role of the Board in evaluating 
and recommending improvements with regard to the Disability Evaluation 
System?
    Response. The most important improvement recommended by the RFPB, 
was the elevation to the highest levels of DOD and VA of the DES.

    B. Would you please clarify what role the Reserve Forces Policy 
Board played in the creation of the Disability Evaluation System pilot?
    Response. The DES pilot program was the work product of the high 
level agreements between DOD and VA. The RFPB was very careful to 
strongly recommend that the DES pilot be scrutinized and regularly and 
carefully monitored.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ------                                

    [Supplemental information to Presidential questionnaire:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ------                                

    [Letter from Judicial Conference of the United States:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    Chairman Murray. Thank you very much, Mr. Greenberg.
    Mr. Kelly, we welcome your testimony.

TESTIMONY OF KEITH C. KELLY, NOMINEE TO BE ASSISTANT SECRETARY 
    OF THE VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. 
                      DEPARTMENT OF LABOR

    Mr. Kelly. Thank you, and good morning, Chairwoman Murray, 
Ranking Member Burr, and distinguished Members of the 
Committee. Thank you for the opportunity to testify before you 
today and for considering my nomination to serve as the 
Assistant Secretary for Veterans' Employment and Training. Your 
commitment to our Nation's veterans and the transitioning 
servicemembers and their families is truly inspiring.
    I would also like to personally thank Senator Jon Tester 
here for his gracious introduction and for his unwavering 
support and friendship over the many years. As many of you may 
know, Senator Tester is committed to serving veterans and their 
families in Montana and the Nation and he is an outstanding 
advocate for our State, and for that, I thank you, Senator 
Tester.
    I am humbled and honored by President Obama's nomination 
and the confidence of both he and Secretary Solis have shown in 
me.
    During the past few days, I have been privileged to meet 
with many of you and your staff and have received invaluable 
guidance and insights into the Committee's priorities and 
concerns. If confirmed, I look forward to continuing this 
dialog and working with you.
    While they could not be here today, I would also like to 
thank my family for their love and support. We have a long 
history of service in our family. My wife, Norma Jean, was 
serving our country at the homefront (at home) by taking care 
of my young family while I fought in Vietnam. I am grateful to 
her and all of the other military families who also serve our 
country. Her father, Joe Walsh, served in the U.S. Merchant 
Marines during World War II.
    I would also like to thank my children, Keith, Shannon, 
Conan, and Kevin, who is no longer with us. My oldest son, 
Keith Joseph, has made a career as a servicemember with the 
Montana National Guard and has already served in Iraq.
    I would also like to acknowledge and thank Governor Brian 
Schweitzer for his service to the great State of Montana and to 
his support for me as Commissioner at the Montana Department of 
Labor and Industry. They have all played a part and a role in 
my being here today.
    During the Vietnam War, I served in the 101st Airborne 
Division as a sergeant in charge of an infantry squad and later 
full-sized platoon. We operated in the field with daily 
reconnaissance sweeps and nightly ambushes. It was through 
these activities that I honed my leadership skills and earned 
the Combat Infantryman Badge and the Bronze Star.
    When I returned home from service with the Army, my family 
and I, like most military families, faced the challenge of my 
transition from a military combat life to my role as a father 
and husband and part of an American workforce. At that time, 
there was very little transition support, and as a result, the 
experience was unnecessarily difficult. Today, thanks to the 
dedication of the people in this room and the dedication of so 
many who care about our servicemembers and their families, 
significantly more transition resources and support are now 
available.
    However, we can and we must do more. If confirmed, I pledge 
to do my level best to ensure that the men and women who serve 
our country have the best services and benefits our Nation has 
to offer.
    After I returned home from Vietnam and graduated with a 
Master's degree in agriculture economics and economics, I began 
my 35-year career dedicated to public service. I believe in 
bipartisanship. I have worked for and with Republicans and 
Democrats throughout my career and in State and Federal 
Governments. I have faced difficult issues, and, if confirmed, 
my experiences to overcome those challenges will improve my 
work at VETS.
    It is in my current position as Commissioner of the Montana 
Department of Labor and Industry I have become more engaged 
with labor and veterans' programs and have worked on many of 
these programs administered by the VETS. So my vision for every 
day is we are reminded with the tremendous sacrifices made by 
the members of the U.S. Armed Services, the National Guard and 
Reserve. Yet all too often, those who have given so much for 
America kind of face a difficult transition back to civilian 
life.
    If confirmed, I would strive to achieve the following 
goals. Number 1, improve our reach to servicemembers, veterans, 
and their families and other stakeholders.
    Number 2, sustain and bolster intensive employment service 
for those with significant barriers to employment.
    Three, fully implement and continuously improve the 
redesigned Transition Assistance Program.
    Four, continue to partner with other Federal agencies 
implementing the redesigned Employer Workshop.
    And last, five, increase and enhance VETS' ability to 
measure and report on the impact of our programs.
    In conclusion, if confirmed, I will work closely with you, 
with the incredible VETS team, and with our partners and 
stakeholders to provide veterans and soon-to-be veterans and 
their families with the best possible resources there are.
    Thank you again for considering my nomination. It will be a 
privilege and honor to serve those who have served our Nation. 
I appreciate having this opportunity to testify before you 
today and am happy to answer any questions you may have. Thank 
you.
    [The prepared statement of Mr. Kelly follows:]
    Prepared Statement of Keith Kelly, Nominee to be the Assistant 
     Secretary for Veterans' Employment and Training Service, U.S. 
                          Department of Labor
    Good Morning Chairwoman Murray, Ranking Member Burr and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify before you today and for considering my nomination to serve 
as the Assistant Secretary for Veterans' Employment and Training. Your 
commitment to our Nation's veterans, transitioning servicemembers and 
their families is inspiring.
    I would also like to thank Senator Tester for his gracious 
introduction and for his unwavering support and friendship over the 
years. As many of you know, Senator Tester is committed to serving 
veterans and their families in Montana and the Nation. He has been an 
outstanding advocate for our state. Thank you, Senator.
    I am humbled and honored by President Barack Obama's nomination and 
the confidence both he and Secretary Hilda Solis have shown in me. 
President Obama and Secretary Solis are committed to ensuring that the 
men and women who serve this country have the employment support, 
assistance and opportunities they need and deserve to successfully 
transition to the civilian workforce, and find and secure meaningful 
careers. If confirmed, it will be my honor and privilege to work with 
this Committee to achieve that goal.
    During the past few days, I have been privileged to meet with many 
of you and your staff and have received invaluable guidance and insight 
into the Committee's priorities and concerns. If confirmed, I look 
forward to continuing this dialog on an ongoing basis.
    While they could not be here today, I would like to thank my family 
for their love and support. We have a long history of service in our 
family. My wife, Norma Jean, has been the backbone of our family. She 
cared for our family while I served with the 101st Airborne Division in 
Vietnam. I am grateful to her and all of the other military families 
that serve our country. Her father, Joe Walsh, served in the U.S. 
Merchant Marines during World War II. I would like to thank my 
children, Keith, Shannon, and Conan and Kevin (deceased). My oldest, 
Keith Joseph, has made a career as a servicemember with the Montana 
National Guard and has served in Iraq. I would also like to acknowledge 
and thank Governor Brian Schweitzer for his service to the great state 
of Montana and his support of me as Commissioner of the Montana 
Department of Labor and Industry. They have all played a major role in 
my being here today.
                            military service
    During the Vietnam War, I served with the 101st Airborne Division 
as the Sergeant in charge of an infantry squad and later a platoon. We 
operated in the field with daily reconnaissance sweeps and nightly 
ambushes. We conducted combat assaults both in the jungle and on fire-
support bases. It was through these activities that I honed my 
leadership abilities and earned my Combat Infantryman Badge and Bronze 
Star.
    When I returned home from my service with the Army, my family and 
I, like most military families, faced the challenge of my transition 
from a military combat life to my role as father, husband, and part of 
the American workforce. This period was the most difficult time in our 
young marriage, for our family and for my professional career. At that 
time, there was very little support or assistance for transitioning 
servicemembers or their families. As a result, the transition was 
unnecessarily difficult and we had to navigate these challenges largely 
by ourselves.
    Today, thanks to the dedication of the people in this room and many 
others in Congress and throughout the Federal Government, significantly 
more resources are available to support service men and women with this 
transition. However, we can and must do more. President Obama and 
Secretary Solis are committed to serving our servicemen and their 
families as well as they've served us by providing them with the 
support they need and deserve to successfully transition to the 
civilian workforce and find and secure meaningful careers. If 
confirmed, I pledge to do my best to ensure that the 1.5 million 
servicemembers expected to transition out of the military over the next 
five years, are not alone. I will work every day to fulfill the 
promises of the President and the Secretary to provide them with the 
best services and benefits our Nation has to offer.
                             public service
    After returning home from Vietnam, I used my GI benefits to attend 
Montana State University and graduated with masters' degrees in 
Agricultural Economics and Economics. I then returned to public service 
and have dedicated the past thirty-five years of my professional career 
to this endeavor. I believe in bipartisanship and have worked for and 
with Republicans and Democrats throughout my career. I served as the 
Director of the Montana Department of Agriculture for six years under a 
democratic Governor and spent seven years as the Director of the 
Arizona Department of Agriculture under a republican Governor. Then, as 
now, state and Federal Governments faced difficult issues and, if 
confirmed, my experiences overcoming those obstacles will inform my 
work at VETS. For instance, in 1994 we faced significant revenue 
shortfalls. My agency experienced a 20% reduction in our budget. 
However, I succeeded in making difficult decisions and meeting the 
reduction goals and was singled out by the State Department of 
Administration for my excellent management abilities.
    It is in my current position as Commissioner of the Montana 
Department of Labor and Industry, that I have become more engaged with 
labor and veterans' programs. As chair of the Veterans' Affairs 
Committee of NASWA (National Association of Workforce Agencies) from 
2008-2010, I interacted with and worked on many of the programs 
administered by VETS. During my tenure, the Committee evaluated these 
programs and submitted recommendations to the NASWA Board to improve 
the employment and training services for America's Veterans.
                            vision for vets
    Every day, we are reminded of the tremendous sacrifices made by the 
members of the U.S. Armed Services, National Guard and Reserve. They 
leave their friends, families and careers behind to defend our freedoms 
around the world. These brave men and women deserve a hero's welcome 
and a chance to utilize their unique skills to help rebuild our economy 
when they return home. Yet, all too often, those who have given so much 
for America face a difficult transition back to civilian life and 
struggle to find a job worthy of their talents. President Obama and 
Secretary Solis have made a commitment to provide the men and women who 
serve this country and their families with the employment support, 
assistance and opportunities they need and deserve to find and secure 
meaningful careers. If confirmed, I would work with this Committee, 
Congress, my fellow agencies at the Department of Labor and within the 
Administration as a whole to fulfill this commitment.
    In particular, I would strive to achieve the following goals:

          (1) Improve outreach to servicemembers, veterans and 
        stakeholders to ensure they are aware of and have access to the 
        programs and services available to help them achieve their 
        employment and career goals;
          (2) Sustain and bolster intensive employment services to 
        those with significant barriers to employment;
          (3) Fully implement and continuously improve the redesigned 
        DOL Transition Assistance Program (TAP), continue to partner 
        with the Departments of Veterans Affairs, Defense, Homeland 
        Security and others to by implementing the redesigned DOL 
        Employment Workshop as part of comprehensive effort to 
        seamlessly transition servicemembers, Guard and Reserve members 
        and their families from active duty to civilian life; and
          (4) Increase and enhance VETS ability to measure and report 
        on the impact of our programs by improving data collection and 
        reporting.

    In conclusion, if confirmed, I will work closely with you, with the 
incredible VETS team and with our partners and stakeholders to provide 
veterans, transitioning servicemembers and their families with the best 
possible resources and services to enable their success in today's 
economy. Thank you for your unwavering commitment to veterans and for 
considering my nomination. It would be a privilege and an honor to 
serve our Nation's veterans, transitioning servicemembers and their 
families.

    I appreciate having the opportunity to testify before you today and 
am happy to answer any questions you may have.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Patty Murray to 
 Keith C. Kelly to be Assistant Secretary for Veterans' Employment and 
                   Training, U.S. Department of Labor
    Question 1. Have you and Secretary Solis discussed the duties and 
the role you would assume as Assistant Secretary for Veterans' 
Employment and Training if you are confirmed? If so, what specific 
areas of the job were discussed?
    Response. Yes. In our conversations, she has made it abundantly 
clear that veterans and VETS are a high priority for her. Specifically, 
we discussed:

    <bullet> enhancing coordination within the Department on those 
programs that support the training and hiring of veterans;
    <bullet> improving coordination with other Federal agencies that 
have programs to support veterans, including but not limited to the 
Department of Veterans' Affairs and the Department of Defense;
    <bullet> developing programs that can more successfully reach 
homeless veterans;
    <bullet> increasing outreach young veterans through via various 
social media; and
    <bullet> including all immediate family members in the transition 
process for the transitioning servicemember.

    Question 2. Have you and Secretary Shinseki discussed the 
relationship you would have with the Department of Veterans Affairs 
(VA) in your capacity as an Assistant Secretary within the Department 
of Labor (DOL)?
    Response. I have not yet had the opportunity to meet with Secretary 
Shinseki, but it will be one of my top priorities if I am confirmed.

    Question 3. What policymaking role do you anticipate having if you 
are confirmed?
    Response. If confirmed, my role will be to support the Secretary's 
policymaking responsibilities by serving as her principal advisor and 
partner on issues relating to Veterans' employment and training.

    Question 4. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. My goal is to ensure that the transition for the military 
personnel to civilian life is less burdensome and more rewarding for 
veterans and their families. In particular, I would strive to achieve 
the following goals:

    <bullet> Improve outreach to servicemembers, veterans and their 
families to ensure they are aware of and have access to the programs 
and services available to help them achieve their employment and career 
goals;
    <bullet> Focus on providing intensive employment services to those 
with significant barriers to employment;
    <bullet> Improve the Transition Assistance Program (TAP), in 
collaboration with the Departments of Veterans Affairs, Defense, 
Homeland Security and others to by implementing the redesigned DOL 
Employment Workshop as part of comprehensive effort to seamlessly 
transition Servicemembers, Guard and Reserve members and their families 
from active duty to civilian life; and
    <bullet> Increase and enhance VETS ability to measure and report on 
the impact of our programs by improving data collection and reporting.

    Question 5. How would you describe your management style and how is 
it suited to this particular position?
    Response. Throughout my career, I have always worked to communicate 
the agency's goals in the broader sense and empower staff to implement 
the policies and programs within a defined timeframe. I work to develop 
working relationships built on trust and mutual respect. I am viewed as 
a `bottom up' administrator that seeks and receives a variety of input 
from staff and stakeholders and ultimately make a decision that has 
been thoroughly vetted and has `buy in' from all interested parties.

    Question 6. What in your experience do you believe contributes to 
your qualifications for this new position?
    Response. As a veteran myself, I have experienced firsthand the 
challenges of returning from a combat environment and transitioning 
into a civilian environment. I have a career in public that spans three 
decades and includes leading, under both republican and democratic 
Governors, three state agencies in two states. These agencies have 
ranged in scope, both in terms of size and budget, as well as in 
mission. As head of the Farm Service Agency at the U.S. Department of 
Agriculture, I led an agency of 13,000 full-time employees with a 
budget of $1.1 billion and today as Commissioner of the Montana 
Department of Labor I oversee an agency with a budget of nearly $60 
million and 750 full-time employees.

    Question 7. I believe much can be done to improve the coordination 
and cooperation between VA and DOL? What thoughts do you have as to how 
this might be achieved?
    Response. I would agree completely. I look forward to partnering 
with you, other Members of Congress, and staff at the VA to maximize 
our ability to serve veterans.

    Question 8. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position?
    Response. Since the intent to nominate, my involvement with DOL has 
been minimal. Consequently, my first priority will be to learn more 
about the agency, observe operations in the field, assess the current 
impact of its programs, and solicit input from VETS' team members, 
veterans and stakeholder groups.

    Question 9. How do you believe special hiring authorities--for 
example, veterans' preference, might be promoted to increase the 
employment of veterans across all Federal agencies?
    Response. VETS' responsibilities in this area complement OPM's 
responsibility of developing and managing human capital for the Federal 
Government. VETS should continue to work in partnership with OPM to 
increase awareness, understanding and support of these authorities 
within all Federal agencies, with particular outreach to human 
resources and management decisionmakers. VETS should also enhance the 
synchronization of our efforts with stakeholders such as the VSOs, 
state workforce agencies, VA's Vocational Rehabilitation and Employment 
Service, and other government entities at the Federal and state levels.

    Question 10. How do you plan to use your role to enhance employment 
opportunities for homeless veterans?
    Response. If confirmed, I am committed to supporting President 
Barack Obama's promise to combat homelessness among our Nation's 
veterans by expanding proven programs and launching innovative 
services.
    Effectively addressing Veterans' homelessness will require working 
in partnership with VA, HUD, HHS and other Federal agencies. While 
employment is a key component of freedom from homelessness, the problem 
needs to be addressed in a holistic, interagency manner with other 
important stakeholders--government and nongovernmental--at the 
national, state and local level, such as community-based organizations 
and neighborhood partnerships.

    Question 11. Too often, servicemembers leave the military unaware 
of the benefits and services they have earned. It is important to 
ensure transitioning veterans are aware of the resources available to 
them. What role should VETS have in this process?
    Response. If confirmed, I have identified several goals that I 
would like to accomplish in my capacity as Assistant Secretary for 
VETS. The first of those goals is to improve outreach to 
servicemembers, veterans and their families to ensure they are aware of 
and have access to the programs and services available to help them 
achieve their employment and career goals. I will exhaust all means to 
ensure that transitioning services are educated on the many 
opportunities, programs, and resources available to them.

    Question 12. The unemployment rate among young post-9/11 era 
veterans has been consistently higher than their civilian counterparts. 
If confirmed, you will oversee several programs that serve this 
population. What improvements should be made to such programs to better 
assist these individuals?
    Response. If confirmed, I will ensure that VETS is doing all it can 
to increase outreach young veterans. I will engage a variety of 
stakeholders to determine the most effective way to reach this 
population and provide them with tools that allow them to reintegrate 
into the workplace.

    Question 13. The way in which job-seekers search for employment 
opportunities has changed. Many individuals search online job banks for 
possible employment. What emphasis will you place on assisting veterans 
in finding employment by using online tools?
    Response. Particularly for those younger veterans, if confirmed, I 
would place a high emphasis on the technology they are comfortable with 
and utilize regularly. Sites such as Facebook and LinkedIn offer many 
opportunities for veterans to navigate the business world and job 
opportunities that are available. The challenge has always been and 
will continue to be ensuring the process is intuitive and user 
friendly.

    Question 14. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. Yes. I look forward to working collaboratively with 
Congress.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Richard Burr to 
 Keith C. Kelly to be Assistant Secretary for Veterans' Employment and 
                   Training, U.S. Department of Labor
    Question 1. The completed questionnaire you submitted to the Senate 
Committee on Veterans' Affairs reflects that you were president of 
Kelly & Associates from 2001 to 2002.
    A. Please identify the jurisdiction(s) where this entity was 
licensed to do business and the current status of this entity. If it is 
no longer in existence, please explain how and when it was dissolved.
    Response. Kelly & Associates was registered in the Commonwealth of 
Virginia. The business was closed in 2002 when I moved back to Montana 
to accept a position with the State of Montana.

    B. What was the nature of that business entity?
    Response. Government Relations

    C. Please explain the general nature of the customers/clients 
served by that business.
    Response. Kelly & Associates' primary client was an economic 
analysis firm that specialized in risk management including assessing 
probabilities for weather related crop losses in order to build 
sustainable actuarial tables for crop insurance.

    Question 2. Question 19(d) of the Committee's questionnaire 
requests information on any activities you have engaged in during the 
last 10 years for the purpose of passing, defeating, or modifying any 
legislation or impacting the administration of laws or public policy. 
In response, you indicated: ``NONE; NASWA does lobby on behalf of State 
Workforce Agencies.''
    A. Would you please clarify whether, as a member or officer of the 
National Association of State Workforce Agencies (NASWA), you 
personally engaged in any activities for the purpose of passing, 
defeating, or modifying any legislation or modifying the administration 
of laws or public policy? If so, please provide a description of those 
activities, including the legislation, laws, or policies you were 
seeking to change.
    Response. As a member of NASWA, I accompanied staff of NASWA to 
meetings with Members of Congress and/or their staff to discuss issues 
important to the publicly-funded workforce system, including 
unemployment insurance, reauthorization of the Workforce Innovation 
Act, and annual appropriations.

    B. Would you please clarify whether, as a state employee, you 
personally engaged in any activities for the purpose of modifying any 
legislation or laws? If so, please provide a description of those 
activities, including the legislation or laws you were seeking to 
change.
    Response. As Commissioner of the Montana Department of Labor 
&Industry, I testified on behalf of the Schweitzer Administration on 
both budgetary issues and policy considerations. During that time, 
there were successful efforts to pass comprehensive Workers 
Compensation reform; legislation to increase and index the minimum 
wage; and legislation that would allow Montana to operate as a single 
State Workforce Investment Board. Additionally, the Montana Department 
of Labor & Industry provided data and responded to questionnaires for 
NASWA which were used to develop recommendations for implementation of 
various policies impacting the workforce system and unemployment 
programs.

    C. Question 16(b) of the Committee's questionnaire requests 
information about any reports, memoranda, or policy statements you may 
have helped to prepare on behalf of any organization. In response, you 
indicated: ``N/A.'' Would you please clarify whether, as a member or 
officer of the National Association of State Workforce Agencies, you 
contributed to any reports or policy statements for that organization? 
If so, please provide a copy of any such materials.
    Response. As stated in my response to Question 2(B), while serving 
as Commissioner, the Montana Department of Labor & Industry provided 
data and responded to questionnaires for NASWA which were used to 
develop recommendations for implementation of various policies 
impacting the workforce system and unemployment programs,. All policy 
and budget recommendations were first recommended by the Executive 
Committee and then voted on by the full board, which included the heads 
of all 50 state agencies. Any documents or reports released by the 
organization were drafted by NASWA staff.

    D. According to information from NASWA, you previously served as 
the chair of the NASWA Veterans' Affairs Committee. Would you please 
describe your responsibilities and activities in that role?
    Response. The role of NASWA's Veterans' Affairs Committee is to 
advise State Administrators on issues related to workforce programs for 
veterans, primarily the Disabled Veterans Outreach Program and the 
Local Veterans Employment Representative program. The Committee 
provides a forum for state veteran program leaders to discuss issues 
regarding legislation, policy, and procedures for these programs. As 
Chair, in co-ordination with NASWA staff, I led two annual meetings 
with 15-20 staff to discuss policies and budgets for successful 
implementation of these programs.

    Question 3. The Veterans' Employment and Training Service (VETS) 
oversees a range of programs and complicated laws. For fiscal year 
2013, the President has requested $258 million for VETS, including over 
$220 million for various grants and approximately $38 million for a 
nationwide staff of 218 Federal workers.
    A. What do you see as the key functions performed by VETS?
    Response. I am committed to serving our military families as well 
as they've served us by providing them with the support they need and 
deserve to successfully transition to the civilian workforce and find 
and secure meaningful careers. VETS plays a critical role by serving 
America's veterans and separating servicemembers by preparing them for 
meaningful careers, providing employment resources and expertise, and 
protecting their employment rights.

    B. What do you see as the key responsibilities of the Assistant 
Secretary for Veterans' Employment and Training?
    Response. If confirmed, I will consider my responsibilities to be 
the following: leading the organization in an ethical and inclusive 
manner; building upon the vision of President Obama and Secretary Solis 
to restore our Nation's sacred trust with Veterans and providing them 
and transitional servicemembers with better services; advising the 
Secretary on relevant policy matters; and reporting to the Secretary, 
Members of Congress, and stakeholders on the results of VETS' efforts.

    C. How has your background prepared you to take on these 
responsibilities, and what prior experiences do you believe qualify you 
to manage a budget of this size?
    Response. As a veteran myself, I have experienced firsthand the 
challenges of returning from a combat environment and transitioning 
into a civilian environment. I have a career in public that spans three 
decades and includes leading, under both republican and democratic 
Governors, three state agencies in two states. These agencies have 
ranged in scope, both in terms of size and budget, as well as in 
mission. As head of the Farm Service Agency at the U.S. Department of 
Agriculture, I led an agency of 13,000 full-time employees with a 
budget of $1.1 billion and today as Commissioner of the Montana 
Department of Labor I oversee an agency with a budget of nearly $60 
million and 750 full-time employees.

    D. How would you measure your success in fulfilling those 
responsibilities?
    Response. I believe that I have left each agency stronger, more 
efficient, and fiscally sound than when I arrived.

    E. What steps would you take to ensure that all of those funds are 
well spent?
    Response. I take my responsibility as a steward of American tax 
payer resources very seriously, and if confirmed will strive to utilize 
the resources allocated to VETS as efficiently and effectively as 
possible to accomplish the agency's mission.

    Question 4. A 2011 Department of Labor Office of Inspector General 
(IG) report on VETS found inappropriate procurement practices within 
VETS headquarters. The report also included other allegations that 
called into question the agency's workplace culture. This IG report led 
to the resignation of Assistant Secretary Ray Jefferson. What steps 
will you take to ensure that the problems identified by the IG will not 
reoccur if you are confirmed as the Assistant Secretary?
    Response. I have always maintained the highest ethical and 
professional standards for myself and my staff. I know the Department 
of Labor has taken additional steps in the wake of Mr. Jefferson's 
resignation to ensure that all agency heads and staff at the Department 
understand their responsibilities and obligations under Federal 
procurement rules and ethics procedures. I will abide by and adhere to 
those requirements and will demand the same of my staff.

    Question 5. According to a recent Government Accountability Office 
(GAO) study, there are 23 Federal employment and training programs in 
which veterans can participate. Of those, six are specifically targeted 
at veterans and administered by the Department of Labor (DOL). Veterans 
can also participate in programs under the Workforce Investment Act, 
administered by DOL, and receive preference.
    A. What is your current assessment of Federal employment and 
training programs and how they specifically affect veterans?
    Response. While some employment and training programs may have 
overlapping eligibility, they often have unique goals and outcomes and 
serve specific subpopulations, for instance the Homeless Veterans 
Reintegration Program. It seems to me that veterans and their families 
benefit from the variety of services and programs available to help 
them obtain and retain good jobs and become self-sufficient. I also 
believe that veterans benefit from the integration of the veteran 
specific programs into the rest of the workforce investment system 
where they receive priority of service. This allows veterans to benefit 
from the diverse array of training and employment programs funded by 
DOL.

    B. Are veterans currently searching for a job best served with a 
system that includes many overlapping programs or do you believe that 
there need to be changes made to consolidate services?
    Response. I have not yet had the opportunity to learn about all of 
the current programs and services in place to determine if there are 
any changes that may be necessary to ensure veterans are receiving the 
best services possible. However, if confirmed, I look forward to 
hearing input both from Congress and stakeholders on how to improve the 
provision of services to veterans.

    C. Do you have any initial recommendations on how to improve the 
delivery of services to ensure that veterans are receiving the most 
wide ranging and beneficial services available?
    Response. I have not yet had the opportunity to learn about all of 
the current programs and services in place, to determine whether 
improvements could be made on the delivery of services.. However, if 
confirmed, I look forward to hearing input both from Congress and 
stakeholders on how to improve the provision of services to veterans.

    Question 6. VETS administers programs, including the Jobs for 
Veterans State Grants Program, which provides funding for the Disabled 
Veterans' Outreach Program (DVOP) and Local Veterans' Employment 
Representative (LVER) program.
    A. What is your initial assessment of this program?
    Response. VETS offers employment and training services to eligible 
Veterans primarily through Jobs for Veterans State Grants Program 
(JVSG). JVSG provides funding to the states to hire, train and support 
Veteran employment staff (LVERS and DVOPs). These staff specialist are 
located in a number of service delivery points, most notably the 
American Job Centers that are delivery point for a wide set of 
employment and training services funded by the Workforce Investment Act 
and the Wagner-Peyser Act. While, I have not been fully briefed on the 
JVSG program, I can say from my own experience that Veterans and 
eligible spouses benefit by the collaboration and coordination of these 
services and by maximizing the employment and training opportunities 
developed though relationships with State Workforce Agencies.

    B. One concern Congress has voiced regarding this program is the 
lack of quality performance measures to determine each state's usage of 
the grant funding. What do you believe is the best way to evaluate the 
effectiveness of grant dollars distributed by this program?
    Response. Like you, I believe in the implementing quality 
performance metrics to strengthen and manage programs on an ongoing 
basis. Moreover, I take very seriously the responsibility of 
stewardship of taxpayer dollars and if confirmed would work to ensure 
VETS is regularly monitoring the states' use of Federal dollars.

    C. Do you have any preliminary thoughts on how this program could 
be improved to better assist veterans with finding jobs?
    Response. Before making specific recommendations, if confirmed I 
would like the opportunity to first initiate a review of states to 
assess which programs execute successful program implementation and 
which are facing challenges. That review would allow the agency to 
identify best practices and pinpoint obstacles that may impede system-
wide implementation.

    Question 7. VETS administers and helps to enforce the Uniformed 
Services Employment and Reemployment Rights Act (USERRA), which 
provides reemployment rights and employment discrimination protections 
for veterans and members of the Guard and Reserves.
    A. Do you foresee the possibility for a surge of USERRA claims as 
the troop levels in Afghanistan are drawn down and more Guard and 
Reserve members return home? If so, what steps would you take to help 
ensure that any claims from these returning servicemembers are handled 
expeditiously?
    Response. Yes, I believe that there will likely be an increase in 
USERRA claims as increasing numbers of our men and women transition out 
of active duty service and return to the civilian workforce. I am 
committed, if confirmed, to the President's promise of fighting 
employment discrimination against veterans and returning 
servicemembers. USERRA compliance and support will be a top priority. 
If confirmed, I will work to ensure that VETS closes each case within 
the statutory timeframe, or when necessary obtains extensions to 
continue its investigative efforts. One step that I would take is to 
focus on education and outreach. In my experience, most employers seek 
to comply with the law and support our Nation's service men and women. 
Disputes arising under the law are often the result of 
misunderstandings about respective rights and responsibilities, and one 
of VETS most important functions is to avoid those disputes before they 
become formal investigations. Thus, if confirmed, I will focus on 
ensuring VETS is continuing to reach out and educate the public as well 
as providing assistance directly to questions and inquiries.

    B. How important is it for VETS to cooperate and coordinate with 
other entities that help enforce USERRA (such as the Office of Special 
Counsel and the Employer Support of the Guard and Reserve) and what 
steps would you take to facilitate any necessary coordination and 
collaboration?
    Response. Collaboration and coordination are critical to 
effectively administering and enforcing USERRA. As you know, DOL shares 
responsibility for educating, administering and enforcing USERRA with 
numerous other agencies including the U.S. Office of Special Counsel, 
the Government Accountability Office, the Office of Personnel 
Management, the Departments of Justice and Defense. I believe that the 
best way to protect the rights of our service men and women, Guard and 
Reserve is to work collaboratively with all entities involved. If 
confirmed, I will review current processes and the extent of 
collaboration to ensure that VETS is fully engaging with our fellow 
agencies and fulfilling any and all MOUs.

    C. What role should the Office of Special Counsel play in handling 
USERRA claims? For example, should the Office of Special Counsel be 
allowed to handle all USERRA claims against Federal agencies?
    Response. It would be premature for me to make a judgment in that 
regard until I have an opportunity to fully understand the role that 
the Office of Special Counsel currently plays in the handling of USERRA 
claims.

    Question 8. During the first half of 2013, VETS will be finalizing 
its redesign of the Transition Assistance Program (TAP), the first such 
redesign in nearly 20 years. The new TAP will be deployed around the 
world to assist servicemembers prior to leaving the military.
    A. Have you had an opportunity to review the new TAP curriculum? 
And if so, do you have any thoughts or concerns about the redesign?
    Response. No, at this time I have not reviewed the curriculum.

    B. Given that performance data on the newly redesigned TAP will not 
be available initially, how will you, if confirmed, determine the 
effectiveness of TAP in 2013?
    Response. It is my understanding that the Department recently 
finished piloting the new curriculum and has already begun to phase in 
the new DOL Workshop at bases across the country and the initial 
feedback has been very positive. If confirmed, I would want to work 
with stakeholders and others to collect feedback from participants and 
develop an initial process for review to ensure continuous improvement 
and refinement in the program.

    C. TAP is a collaboration between the Department of Defense, DOL, 
and the Department of Veterans Affairs. If confirmed, how will you 
ensure that the three agencies work together to provide separating 
servicemembers with the tools they need?
    Response. I am committed, if confirmed, to working hand in hand 
with our fellow agencies to ensure veterans are aware of and receive 
the services they need to successfully and seamlessly transition to 
civilian employment. If confirmed, I would also continue to work with 
DOD, VA and DHS to ensure that the Employment Workshop is cleanly 
integrated into the overall Transition program so that all components 
complement and build upon the others.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ------                                

    [A letter from the Office of Government Ethics follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    [Letter from Keith Kelly to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Murray. Thank you both very much for your 
testimony. We will now turn to a period of questions from the 
Committee members, and I will begin.
    Mr. Greenberg, as I mentioned in my opening statement, and 
particularly over the past year, we have seen the claims 
backlog continue to grow at the VA. The error rates remain 
high, and the number and complexity of claims is continuing to 
rise. Each of those facts is going to impact the court and its 
workload. And on the other side of it, the court has to make 
sure that veterans have a very meaningful judicial review of 
the decision.
    There has been some debate here in Congress about how 
Congress and the stakeholders should measure the court in 
meeting its responsibilities and I wanted to ask you, in your 
opinion, how should court efficiency be measured?
    Mr. Greenberg. Well, I believe Congress already has a 
certain way of looking at it. In the statute creating the 
court, it requires the court to report annually to Congress on 
the disposition of its cases in various categories. That does 
not deal at all, in my view, with the qualitative 
determinations, but merely asks the court to report, as it 
does, each year on its disposition rate.
    My view is that, as with all Federal courts for which these 
reports are required, the Committee, or Congress as a whole, 
should take a very close look at whether the mere disposition 
of a certain number of cases is consistent with a qualitative 
determination on a case-by-case basis. But it is a court of 
appellate review and, therefore, sets precedent.
    My own review of the cases over the last 5 years has been 
that the court probably does a very superior job when compared 
with other courts of appeal in the Federal system in prompt 
disposition of a large number of cases that come before it. My 
own experience is generally with the other courts of appeal and 
the Federal District Courts, and I would say that it compares 
very favorably, in my view, based upon my experience, 
substantively as well as quantitatively.
    My own view is it probably can expect to have a great deal 
more by way of work to do, and I would expect that I would be 
part of that workload; and I would expect the workload to 
increase; and I would expect the workload to require, in my 
view, a more explicit explanation in each case for the 
determination so that it acts more explicitly as precedential 
value. That is my view of it.
    Chairman Murray. OK. During the past few years of your 
professional career, you have been a very forceful advocate for 
our servicemembers and veterans. In fact, you noted, in 
response to the Committee's questionnaire, that you have come 
to consider yourself as a soldier's lawyer.
    Mr. Greenberg. Yes.
    Chairman Murray. How would you respond to those who would 
question your ability to be impartial, given your record of 
strong advocacy on behalf of servicemembers and their----
    Mr. Greenberg. That is a very good question, Chairman. 
Sorry. As you will also note from my record of 45 years, it 
seems like a long time, but I feel, looking in that mirror, as 
if I am looking at a 25-year-old lawyer with enthusiasm. My 
wife will disagree. She can see me from the back----
    [Laughter.]
    Mr. Greenberg [continuing]. And knows that a lot of 
poundage has increased over those years.
    But my view is that I have taken an oath as a soldier, as a 
lawyer, as a crime commissioner, as Chairman of the RFPB, and 
when I take those oaths, I think I have adhered to those oaths. 
So there may be an inconsistency in all the things that I have 
done over the course of a very long career, but I believe in my 
heart of hearts, without question, having seen judges, 
appellate and trial judges, knowing them as lawyers before they 
were in those positions, that I can fairly, impartially, and 
most importantly, or as importantly, efficiently, meaning 
swiftly, adhere to my oath of office, notwithstanding the fact 
that I have been an advocate exclusively for lawyers--excuse 
me, for soldiers--when it is a soldier case.
    Chairman Murray. OK. I appreciate that very much.
    Mr. Kelly, let me turn to you. Last year, Congress passed 
and the President signed into law the VOW to Hire Heroes Act. 
That legislation included provisions like mandatory TAP and 
increased education and training opportunities for our 
servicemembers and veterans and underscores the real need for 
Labor and Defense and VA to work together to address 
unemployment for our veterans. In your opinion, what can these 
departments do and how will you work collaboratively to ease 
the transition between military and civilian life?
    Mr. Kelly. Thank you, Chairwoman Murray. You have hit on a 
very specific and important thing, the collaboration of working 
together between the agencies. I am most familiar with the role 
of the U.S. Department of Labor and veterans' issues. However, 
I am fully aware that the Veterans Administration, the 
Department of Defense, and I guess Homeland Security have a 
piece of that, too.
    I will point to how will I address that. I am a very 
collaborative sort of person. We all have the very same goal: 
that is to treat veterans and, as simply and succinctly as 
possible, to get them the best services. We are all on that 
same page. And so it is working across the agencies.
    My experience, I will point out in Arizona, I ``created'' 
the Arizona Department of Agriculture after the legislature 
mandated the situation of creating a cabinet-level department. 
It was four very different cultures that were brought together: 
the Arizona Livestock Board; the Arizona Ag and Horticulture 
Commission; and two other boards and one other commission, to 
make a cohesive department that has different cultures.
    My other sense is that we all have our expertise in life--I 
am mostly familiar with the Department of Labor and Industry in 
our State--and throughout the country are experts, and I 
recognize that, as such; and with regards to employment and 
training across the gamut for whomever it is, and now with 
specific emphasis and a priority of service given to veterans.
    So I really look forward to working with my counterparts in 
the appropriate way in these other major agencies of the 
Federal Government. I welcome it. We are all headed to the same 
place. Thank you.
    Chairman Murray. OK. I have used my time. I am going to 
turn it over to Senator Burr.
    Senator Burr. Thank you, Chairman.
    To both of you, thank you for your service to the country.
    Mr. Greenberg. Thank you, Senator.
    Senator Burr. Mr. Kelly, we have exhausted a lot of 
questions and answers and the only thing that I missed in my 
conversation with you was that you were friends with Tester. 
[Laughter.]
    Now, that might have generated a different line of 
questions to cover, but I will overlook that and I will move to 
Mr. Greenberg.
    Mr. Greenberg, I mentioned that I hope Congress will soon 
pass legislation requiring judges of the Veterans Court to live 
in the D.C. area, where the court is located. The current Chief 
Judge expressed his belief that, ``the idea of residency 
requirement in the area is the encouragement of the members to 
recognize that the court's presence is here at the chambers or 
here, the court staff are here, their hearing room is here, and 
that you can come to agreement better when you see eye to 
eye.'' Do you have any disagreement with that?
    Mr. Greenberg. Not at all.
    Senator Burr. Good. Mr. Greenberg, you also indicated in 
your statement earlier, you have worked in the legal profession 
for almost four decades and served in the Army for 27 years as 
a Reservist. After such a long and successful career, what led 
you to want to do this?
    Mr. Greenberg. Well, it is a very good question. It is now 
45 years. It was four decades when I started my program, and 
that is the relationship. That is what makes me want to do 
this, is what I have seen over the last 10 years in everyday 
practice. I have been in a situation where the Army refuses to 
give adjournments to lawyers representing soldiers at their 
hearings at Walter Reed, so the Chief Justice of New Jersey and 
the Chief Federal Judge said, you are doing good work. You get 
the adjournments from the judges and we will let you go to 
Washington.
    I have just experienced 10 years of working with wounded 
and injured soldiers that convinced me that after a lifetime in 
private practice with these other public service commitments, 
all of which were part-time; and when the opportunity, 
honestly, arose through the President and Senator Menendez, I 
said yes, with alacrity.
    Senator Burr. I appreciate that answer. You were the one 
who alluded to how long in the tooth you might be getting.
    Mr. Greenberg. Yes.
    Senator Burr. I just remind you that this is a 15-year 
term----
    Mr. Greenberg. Yes.
    Senator Burr [continuing]. And it has an exit point after 
ten. But I just want to make sure, and I am sure you are astute 
enough to recognize the fact that after that 10 years, there is 
the likelihood that a Chief Judge can recall a judge back to 
the bench. Just understanding that that comes with the duties, 
you are comfortable with that?
    Mr. Greenberg. They are going to have to pry my cold hand 
from the gavel at age 85, if I am confirmed and live that long. 
The rule of 80 does not interest me at all, Senator.
    Senator Burr. That probably is more in your wife's hands.
    Mr. Greenberg. Well, that is right. [Laughter.]
    Senator Burr. As you mentioned, a judge needs to be 
impartial in their decisions. So permit me to explore a few of 
your quotes and your answers to questions.
    In 2009, you were quoted as saying the disability system 
for military personnel should be overhauled because, ``creates 
this way of looking at things so that individuals at fairly low 
levels think they are saving the government money by haggling 
with wounded soldiers.'' Let me just give you an opportunity to 
clarify. Do you believe that government employees are 
intentionally providing inadequate ratings just to save money?
    Mr. Greenberg. No. By the way, that was addressed to the 
military evaluation system, the so-called MEB/PEB side of 
things, rather than the veterans' side, although I will say, in 
fairness, that it could be applied. I do not think there is any 
ill will. I do not think there is any animus toward soldiers or 
veterans. I think there are probably a lot of reasons for it. 
But in my personal experience, the inclination, rather than--
seems to be one of looking at a claim from an insurance company 
standpoint as opposed to a, what I would hope would be perhaps 
an irrebuttable presumption, but a presumption nonetheless, in 
favor of the soldier or the veteran. That is the point I was 
trying to make and that is--I hope I am clarifying it.
    Senator Burr. Sure. Along the same lines, you have said 
that servicemembers who are being medically discharged from the 
military should not have to prove the extent of their 
disabilities in order to receive benefits. In fact, in response 
to a prehearing question, you said that you believe, ``the 
medically unfit soldier should receive 100 percent 
compensation.'' Now, how would that belief impact your ability 
to be impartial when it comes to decisions in front of the 
court?
    Mr. Greenberg. Twofold, Senator, if I may.
    Senator Burr. Sure.
    Mr. Greenberg. Senator, one, that does relate exclusively 
to the military side, and I have always had a philosophical 
view that if--and a practical view in arguing these cases at 
Walter Reed, which is the hearing location that begins the 
process, or is in the middle of it--that if you are medically 
unfit, why are we talking about percentages, which is an 
entirely different thing than on the veterans' side, where you 
have a service-connected condition or disability and where a 
percentage of that disability is a relevant consideration. You 
are either fit or unfit, in my philosophical view, on the 
military side.
    To answer part two of the question that you posed, Senator, 
I have no difficulty--once I take the oath--I have been an 
advocate all my life. I have also been in a position as a 
Commissioner, as the Chairman of the RFPB, to listen to all 
sides and make recommendations. In this case, if honored to be 
confirmed and I take that oath, I take the oath seriously.
    Senator Burr. So you would have no problem ruling against a 
disabled veteran seeking a higher disability rating if the 
facts did not substantiate that?
    Mr. Greenberg. Facts and law, exactly.
    Senator Burr. My last is question along those lines. You 
stated in the prehearing questions, ``the determination of 
percentage disabilities, if they are to be retained, should 
never be reduced but only increased if a soldier makes a case 
for a change in circumstances.'' Is that, again, just on the 
military side, or how would you respond if, in fact, the VA 
sought a reduction in benefits and the substantiation was there 
for it?
    Mr. Greenberg. Again, that is a philosophical point of 
view. It is fundamentally the military side. It focused, in my 
mind, on the PTSD situation, which I encountered in a great 
many cases. But the same answer would be true there, with 
respect, Senator--that is, if the law required me as a Federal 
appellate judge on this court to make a determination resulting 
in a reduction, I would, if the facts dictated it.
    I was stating my own personal view that there should be 
some repose with the veteran, that if he or she were granted a 
certain percentage of disability they should have the comfort 
or the knowledge of knowing that that cannot be taken away from 
them. I assume that there was a legitimate process which 
resulted in the award or the determination, that they went 
through the appellate process and came to that conclusion. That 
is more philosophy than anything else. And again, if Congress 
does not change the law, if the requirements remain the same 
and it can go up and down, it would be determined on a case-by-
case factual basis.
    Senator Burr. OK. My clock is broken. My time has probably 
run out. But since my clock is broken, I am going to ask one 
more question.
    Mr. Greenberg. Yes, sir.
    Senator Burr. The Chairman already alluded to this. During 
2011, it took an average of 584 days for an appellant to 
receive a single-judge decision from the Veterans Court and it 
took 763 days for an appellant to receive a decision by a panel 
of judges. Based upon your years of litigation experience, can 
you set what you think is a reasonable timeframe for the court 
to make a decision?
    Mr. Greenberg. A lot less than that. I cannot quantify it--
--
    Senator Burr. I think that----
    Mr. Greenberg. By the way, I took a look at the last report 
that was required by Congress, the 2011 report. You might have 
more updated information than I do. But as I read it, the 
report compares the disposition of cases by this court most 
favorably with all other courts of appeal. Now, this is a 
specialized court, I understand that, and it is more likely 
that you have single-judge dispositions in this court than 
panels, and so forth. But if honored to be confirmed, I am 
ready to hit the ground running, as I think you alluded to, and 
I am sure there is a way, even with what I would anticipate is 
a greater increase in the number of appeals, to work it out so 
that that length of time, which sounded a little long to me, 
Senator, with respect--I am sure you have the facts better than 
I do, but----
    Senator Burr. I think the Chairman alluded to the fact that 
this is the only thing that we have to gauge it on and----
    Mr. Greenberg. Yes.
    Senator Burr [continuing]. We think it is----
    Mr. Greenberg. I think it is too long.
    Senator Burr. And I would, on behalf of all of us, solicit 
any thoughts that you have on an ongoing basis as to how we can 
change that to make sure that our veterans and their families 
do not have to wait too long for these decisions, and that is 
an ongoing solicitation.
    Again, Mr. Kelly, thank you. I will not hold Tester against 
you. [Laughter.]
    Mr. Greenberg, thank you.
    Chairman Murray. I would just add, if that is the right way 
to measure these very complex cases, increased workloads. I 
think that is a question that needs to be asked, as well. Thank 
you very much.
    Senator Tester.
    Senator Tester. Well, I want to start out by saying thanks 
to Ranking Member Burr for his openness.
    As long as you are warmed up, Mr. Greenberg, could you, as 
concisely as you possibly can, tell me what the position--
describe the position that you are being nominated for.
    Mr. Greenberg. It is one of nine judges on the U.S. Court 
of Appeals for Veterans Claims, an Article I court, meaning I 
do not serve during good behavior. I serve for a fixed term of 
15 years. It has an extremely narrow jurisdiction set by 
Congress, which I fully understand and understood when I was 
asked if I would be willing to serve on this board, if 
nominated and confirmed. And that narrow jurisdiction, 
relatively speaking, is to make legal and constitutional 
determinations of the administrative decisions below and not to 
substitute the court's judgment on a de novo basis for that 
made by the agency below. That is in the statute. That is how I 
understand it.
    Senator Tester. Very good. They have talked about backlogs. 
They have talked about your background, and I applaud you both 
for what you have done. One of the things--and I am not an 
attorney--from the job that you have described that I think 
would be very, very difficult is people who are appealing a 
previous decision that have an unseen injury, Post Traumatic 
Stress Disorder, a Traumatic Brain Injury, the signature 
injuries coming out of Iraq and now Afghanistan. What criteria 
do you use in that particular case to make a decision to 
determine whether you are going to rule on the side of the 
soldier or----
    Mr. Greenberg. Well, again, this is an appellate court and 
the determination is made on the record made below. That is why 
there are a great number of remands for additional information 
or additional testimony or evidence, whatever it is. Remember--
I hope I am answering your question--there is no statute of 
limitations on a veteran making an initial claim. The problem 
begins to develop once you are within the system, and that is 
where these time limits become important to the veterans' 
claims. So if you go all the way through the court and then 
develop this condition, which the onset may not come for 
years----
    Senator Tester. That is correct.
    Mr. Greenberg [continuing]. You can start all over again 
and add that. But I would--it is not up to me, it is really up 
to Congress--make a determination as to how to either allow a 
consolidation of the new claim or expand upon that claim at any 
point in the judicial process, in other words, while the case 
is pending before the court.
    Senator Tester. OK.
    Mr. Greenberg. So that is up to Congress to do, not up to 
the court.
    Senator Tester. I have got you. That is fine.
    Mr. Kelly, you know all too well the unemployment rates. 
Montana fares a little better than most of the country, but the 
fact is that it is unacceptably high in the private sector and 
it is particularly unacceptably high amongst our veterans, and 
if you want to add Native Americans on top of that, it 
continues to get higher and higher. You have been addressing 
this issue for some time. I guess what I would ask is, having 
served at the State level, what lessons have you learned?
    Mr. Kelly. Thank you, Chairwoman Murray, Senator Tester. 
The last 8 years in this economy, this economic hiccup that we 
went through, I have learned a lot. Of course, the unemployment 
piece is within the Department of Labor and Industry in 
Montana, as well, with all the extended unemployment benefits. 
As the rural State that Montana is, it is always a challenge of 
providing services out there to the people.
    And what I guess I have learned most, and I want to 
compliment both the Chair and the Vice Chair, with regards to 
one of the hiccups on licensing and those things that go along 
with certifications, is kind of a key point to keep moving this 
and getting these veterans brought back into the workforce 
somehow. There has got to be a better way. Montana is a little 
unique from most State labor departments, but the professional 
occupational licensings are within the jurisdiction of the 
Department of Labor and Industry and that is clearly 
something--there are 50 State laws to look at with the rules 
and policies and regulations and who can be an EMT or who can 
be a truck driver, and so the gatekeepers there at those States 
need to be synchronized, and I look forward to working with the 
States to get that, which seems to be a very fixable piece to 
address.
    In Montana, I think the biggest challenge is unemployment, 
and I think we just now are going to announce coming underneath 
6 percent. And with that is some of the training that this 
handicap or this impediment that is out there for those people 
who could certainly work in the oil patch between North Dakota 
that has certainly moved into Montana. In a lot of those 
positions, there just seems like, to me, there is some common 
sense type of work activity there.
    And so I--you know, on the ground and delivering these 
services, it is always a challenge, the collaboration. We have 
those same challenges at the State Government level that you 
pointed out here at the Federal level, and that I have learned, 
as well, and have been able to navigate through most of them.
    Senator Tester. My time is up.
    Chairman Murray. Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Mr. Kelly, I like Jon Tester, so I have no 
problem whatsoever.
    [Laughter.]
    Mr. Kelly. So do I.
    Senator Isakson. He is a great Member of the Committee and 
the Senate.
    As you know, last year, we made the TAP program mandatory 
in terms of transition assistance.
    Mr. Greenberg. Yes.
    Senator Isakson. One of the reasons we did that was because 
there seemed to be a black hole that veterans fall in between 
finding opportunities and being prepared for those 
opportunities. What will you do in your position to close that 
black hole and assure opportunity and preparation are major 
efforts of the Department of Labor and the Department of 
Defense for our veterans?
    Mr. Kelly. Thank you, Senator Isakson. I applaud the effort 
that is ongoing right now, in the whole rework of the TAP and 
the mandatory piece in that, to really keep that moving.
    As front-end as we can, and on the back end, to make sure 
that these people are exposed to TAP, I really applaud and like 
the idea that they do that in a military setting for the very 
first, initial time, because the culture in the military 
setting--you are pretty well managed in the military culture to 
the point of blowing taps at six o'clock in the morning to get 
up. So now they are transitioning into a whole civilian life 
where more of the accountability and responsibility falls to 
them, and I think them being aware of that sooner than later is 
better. The whole TAPS rewrite as I understand it is just 
underway of finalizing, kind of getting rolled up with the 
Department of Labor's piece is very important.
    The other part, which I tried to emphasize in my testimony 
is the inclusiveness of the whole family, which I think is very 
important. It was in our case. I can look back at that and that 
struggle. I have witnessed it with big mass layoffs in certain 
other places there. The networking that spouses do can help 
move the various things along is critically important.
    So my sense is, and I am not an expert on that, but it does 
seem to be removed with regard to TAPS, that we are kind of 
working across the agencies better and getting the total 
picture more holistically of the resources that should be 
available to these veterans to go forward. That is my sense of 
it.
    We in Montana, I think, probably--going back to what 
Senator Tester said about other lessons learned--we get about 
40 percent that come in the door of the local one-stop job 
service office. The other 60 percent, where are they at? That 
has been a challenge and a problem, and I think I have shared 
that with--I think it was Senator Burr--that that is the sacred 
DD-214. That starts a lot of things up. We are finally getting 
that so we can help track that. It is the data that--and 
running these people is not the right word, but being able to 
know their last address or telephone number or contact number 
is critically important.
    So, hopefully, I think the cap is certainly positive and we 
are moving in a good direction. It seems to me that it is well 
underway and I am encouraged to work with Congress, review it, 
see where it is really working, what are the unintended 
consequences, and keep pushing to make a more streamlined 
process.
    Senator Isakson. Well, we appreciate your service to the 
country and your taking on this responsibility.
    Mr. Greenberg----
    Mr. Greenberg. Yes, Senator.
    Senator Isakson [continuing]. Your November 9, 2009, 
article in the Star-Ledger is what probably prompted both the 
Chairman and the Ranking Member's question about ``can you 
handle these decisions objectively because you were so 
passionate in your advocacy about the system.'' I am not a 
lawyer, but I learned a long time ago that a lawyer's judgment 
is directly proportionate to who is paying him. So I assume you 
understand that you will be paid by the American taxpayer in 
your new job and that is the way, yes, that will ensure your 
objectivity in those decisions.
    Mr. Greenberg. Yes.
    Senator Isakson. Good. I happen to share a lot of the 
passion that you had in that particular article and I hope you 
will take, as a judge and an arbiter of individual decisions, 
some time to help advocate on what we can do to compress the 
time to go from the serviceman being injured to he or she 
getting a determination of disability. It is really offensive 
to me that we have not been able to shorten the time. I know we 
have to have a judicial review. I know we have to have medical 
review. I know a lot of these are sort of tissue injuries, not 
broken bones. But it is critical, I think, to improve it where 
it goes from almost 2 years, if you go through the appeal 
process----
    Mr. Greenberg. That is right.
    Senator Isakson [continuing]. To some reasonable period of 
time, because these people have given everything for the 
country. We owe them the benefits that they have fought for and 
earned, and we owe them an expedited review that is judicious.
    You are a very outspoken individual and I read what you 
said about Fort Hood and that tragedy. I have read some of the 
things that you have done. I hope you will take that passion 
and be an advocate to the Veterans Administration as to how 
they can better expedite these claims. You will be reviewing 
these claims and be making judgments on appeals, which means 
you will have the whole fact record before you. Be an outspoken 
judge, just as you have been an outspoken lawyer, and just 
remember who is paying you when you make those decisions.
    Mr. Greenberg. I will, Senator. Thank you very much.
    Actually, if I may, Chairman, just respond to the Senator. 
If I may add, I do not ever anticipate losing the passion or 
objectivity. I have to exercise objectivity in every case. 
Shall we settle, I say to my client. We had terrific results 
because we have won below or we have gotten an adequate award 
for them. But I would bring, I think, 45 years of that 
function, the concept of being an advocate, being in a 
courtroom, dealing with judges, adversaries, clients, to this 
particular unique set of circumstances. I view that as a plus 
in my qualifications, with great respect, Senator, that I will 
not lightly lose that enthusiasm regardless of age or who is 
paying me, and I understand who is paying me and I understand 
the role of a judge.
    Senator Isakson. Well, I appreciate that answer, and my 
time is up, but let me just end with a comment. You have a 
unique opportunity to be a change agent. You have been on every 
side of the issue, from representing the veteran to 
representing the taxpayer. You are going to review every bit of 
the process from the time of entry to the time of decision. So 
you have the opportunity, if you take advantage of it, to 
advocate for changes we can make as a government in our system 
to improve the efficiency with which we make these decisions 
and, I think, be much more fair to our veterans. So I hope you 
will do that.
    Mr. Greenberg. Thank you, Senator.
    Chairman Murray. Well stated, Senator Isakson. Thank you.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much.
    Let me follow, if I can, on that, Mr. Greenberg, and thank 
you for your willingness to put your name forward and serve. We 
have talked a lot here about the appeal process and how to 
improve it, or that we all want to improve it, that we want to 
make it more efficient. Can you--maybe it is too early, but my 
guess is that your mind is already working in hope of being 
appointed--what do you see as some specific ideas, and maybe 
you cannot do it right now, but some specific ideas that you 
see to really improve the system so when those cases do come 
before you, that they can be dealt with in a fairly decent 
manner, but also the system prior to that. Do you have any 
specific thoughts?
    My guess is your mind is kind of working on it. As you 
probably got the suggestion of being appointed to this 
position, you have been thinking of all these things and you 
are anxious to kind of probably get to work. But do you have 
any thoughts on the specifics? I know we have talked all 
about--we all are on the same page here, improving the system--
--
    Mr. Greenberg. Yes, and I appreciate the question, Senator. 
I would not presume--A, I have not been confirmed----
    Senator Begich. Correct.
    Mr. Greenberg. B, I have not served 1 day on that court----
    Senator Begich. Fair.
    Mr. Greenberg [continuing]. And so I would not presume to--
--
    Senator Begich. Have all----
    Mr. Greenberg [continuing]. Substitute my judgment----
    Senator Begich. Sure.
    Mr. Greenberg [continuing]. For those of people with 
experience. But what I have done is been a lawyer all these 
years and seen how courts of all kinds, all----
    Senator Begich. Right.
    Mr. Greenberg [continuing]. And I think the mere fact that 
a person from the private sector with this long record that I 
have in and of itself may prove to be a beneficial example. Let 
us apply some of the things that happen in everyday courtrooms 
and everyday appellate courts to this specialized court. That 
is number 1.
    I mean, there is no substitute, as I said, for the personal 
relationship, and there is no substitute for collegiality or a 
feeling that someone is bringing something that we have not had 
before. Again, I would never presume to substitute my 
experience or judgment for those who sit there. I believe in 
collegiality, but I also believe that it is a good thing to get 
somebody from a different background every now and then, 
particularly on a specialized court such as this.
    Senator Begich. Thank you, Mr. Greenberg.
    Let me follow up to the Ranking Member's comment regarding 
presence here, being here, having the court here, but let me 
take you now to an extreme situation. I come from Alaska, which 
is very rural. We utilize video-teleconferencing quite a bit 
from hearings to medicine to education. Are you--tell me your 
feelings on that. You know, to be frank with you, to have a 
veteran come from a small village in Alaska to have to deal 
with their case in this body here in Washington, DC, spending, 
my guess would be, based on my own experience, if you travel 
from a small village to Washington, DC, that experience, being 
here 3-4 days, could be $6,000 or $7,000: hotel, travel, time 
away. It is very expensive.
    Mr. Greenberg. It is.
    Senator Begich. So, tell me your view on how to utilize 
video-teleconferencing and would you be seeing that as an 
opportunity, recognizing no one is denied that right to come 
face to face. So tell me your thoughts on that.
    Mr. Greenberg. Well, I will answer your question this way, 
and then if you would like, I would comment on the implication 
of the Ranking Member's question, as well.
    Number 1, I do not have any difficulty with that. You have 
that--the big Ninth Circuit includes Alaska----
    Senator Begich. That is right.
    Mr. Greenberg [continuing]. And goes all the way down the 
coast. You cannot have a bigger circuit geographically than 
that. So that presents problems. The much maligned Ninth 
Circuit, I might say, has done a very good job on that Veterans 
for Common Sense opinion that they then reversed. I may be 
going off topic a little here, but----
    Senator Begich. I feel your passion.
    Mr. Greenberg [continuing]. But it was reversed by the 
court, so that will be the rule. That will be the law.
    As to making available either individual judges or panels 
of judges to ride the circuit and handle--I think it has to be 
done efficiently, when you have a whole group of cases. We are 
going to sit here for 3 days in the far West or the Midwest or 
wherever, and we are going to hear these cases, then we are 
going to take them back to Washington to decide. I have no 
difficulty with that, with the use of very sophisticated 
technological abilities.
    But, to answer Senator Burr's question, I do not see how 
the court can work unless it comes together and meets on a 
regular, daily basis----
    Senator Begich. As a body.
    Mr. Greenberg [continuing]. Here, as a body, in Washington.
    Senator Begich. Very good.
    Mr. Greenberg. That is my view.
    Senator Begich. OK. Mr. Kelly, let me--and I appreciate the 
position and I appreciate that you are from Montana for a lot 
of reasons, and because it is a rural State. I would tell Jon, 
not as rural as Alaska, but we would debate that all the time, 
and we do. Both of our States have a sizable amount of veterans 
per capita, the highest in the Nation. And the last occupant of 
your position, Ray Jefferson, we had him come up to Alaska. I 
encourage, I invite you up there. He came in February. That 
gave him a lot of extra points, just to say that out loud here. 
So think about that. Winter is better, extra points, but you 
have been in Montana, so you are used to it.
    I would ask you to come up there, but on a larger issue, 
more and more veterans are living in rural parts of our 
country, Alaska, Montana, North Dakota, so forth and so on. Do 
you have any specific kind of thoughts of how you will go after 
that group to make sure they have the ability to be employed, 
and knowing that you have Department of Labor programs, you 
have VA programs, you have programs in HHS--I mean, there are 
all these different programs around--how you can help 
crystalize those programs and hone them to really help our 
veterans in rural areas.
    Mr. Kelly. Well, thank you, Senator; and I really do look 
forward, even if it is February, coming to Alaska. I look 
forward to it. And I have the same challenges that your 
veterans in Alaska have, which is transportation, getting from 
here to there.
    Senator Begich. That is right.
    Mr. Kelly. As you know, it is not easy. Our gateway is 
through Seattle to most things happening in Alaska, and I look 
forward to that.
    Senator Begich. That is good.
    Mr. Kelly. And I think it was mentioned here, House 
Resolution 4072, that we try to work forward with the ideas 
that you may have here, that helps us within the Federal 
Government, across the multiple agencies that are serving 
veterans, to make a more seamless product. I am anxious to work 
with the VA. I am anxious to work with the Defense Department 
to see where the pieces are, that we would all bring our 
expertise to the table. Where do we together say, you know, the 
goal is the same. Where can we find ways to streamline that 
whole process?
    Specifically to rural veterans, Montana is in the very same 
situation, and I think of it as a lesson learned. The State of 
Montana has 23 job service offices--600-and-some miles across, 
400 miles this way--scattered across a very rural State, and a 
total of combined 12 DVOPs and LVERs. Now, of course, you 
assign them to work some of the highest needs and priorities, 
like the air base in Great Falls would obviously be one, and, 
of course, one of the major metropolitan areas on a Montana 
standard, Billings, Montana. But we also need to be mindful of 
the person up in Glasgow, Montana, which is a long ways from 
anywhere.
    And with that, through our workforce services, that is why 
my experience, which I am committed to, is that we have the 
Wagner-Peyser, the Workforce Investment Act, those local one-
stop shops there, where our DVOPs and LVERs are co-located, at 
least in Montana, to provide that service. The scarce resources 
we have all been faced with in the last decade, my experience 
in my 8 years here is to be innovative and creative, knowing 
you have got to cover all the bases; and with those DVOPs and 
LVERs and other resource personnel, so we are not spending all 
the windshield time running somebody out from here to there.
    The other piece that was mentioned, I think, was the 
technology idea. My sense is that there is nothing better than 
personal, face-to-face time. My experience has been that. 
However, I do recognize in this world, and there is a whole 
generation out there that is very comfortable with the newer 
technology, that you can address isolated parts of Montana that 
probably had no option before, or an isolated part of frontier 
Alaska that there were no options for.
    So with the technology, we have Internet, too. I know you 
do in Alaska. And I know that probably you can now stream into 
some of these places that----
    Senator Begich. Right.
    Mr. Kelly [continuing]. I am not sure what the challenges 
were 10 or 15 years ago. They just probably did not spend the 
several thousand dollars to come and make an argument. And so 
technology is helping us, I think, kind of interconnecting us 
together some, most of it in a good way, I hope.
    Senator Begich. Let me just say thank you very much, and 
again, I look forward to hopefully both of you being confirmed. 
We will talk more as you get, hopefully, into office, and spend 
the time discussing what we can do to make sure all these 
different departments are coordinated on job opportunities for 
our veterans. Thank you very much.
    Mr. Kelly. Thank you.
    Chairman Murray. Thank you very much, Senator Begich.
    I just had one last question for you, Mr. Kelly. You are up 
for nomination to an agency and department that is extremely 
important to many Members of this Committee, I think to the 
country, in terms of making sure that our veterans are 
employed. It is what I hear when I talk to veterans everywhere, 
that one of their biggest concerns is getting a job, and you 
will be overseeing an agency that has a lot to do with that. So 
my question really to you is, day one, what is going to be your 
priority?
    Mr. Kelly. Thank you. Day one, the priority is 
collaboration, to visit with the Congressional people that know 
a lot more about this and the issues that you face and the 
stakeholders; to really ask, where are the impediments, the 
true impediments, to better understand and develop the 
information to get that service to people. I have a sense of 
it, a personal sense of what it is. Some of it is the barriers 
for these people who cannot get to training. It is a personal 
barrier. I watch it from running a State agency. And so 
outreach to all of those stakeholders, especially, you know, 
The American Legion, VFW, the Vietnam veterans groups, that 
they probably have got a pretty good body of information. Here 
is where the hiccups are in the system and here is what you 
need to do to address them; to get that collaborative effort 
going.
    And at the same time and in parallel on day one is to start 
the process of working with Congress. I applaud you folks for 
all the things that you have done trying to get us all on the 
same page, working better together, and I am really anxious to 
work on that piece of it with our other Federal stakeholders 
here.
    Chairman Murray. What do you think the biggest challenge is 
today?
    Mr. Kelly. Today? Chairwoman, I have served in 
bureaucracies a long time. Somehow, we can get ourselves, I 
will not use the word ``stovepiped,'' but we can get the 
barriers up with laws and regulations. The point you made in 
here on certification and licenses is a classic example. Fifty 
States are following specifically the laws that are before 
them, that they have promulgated by their boards and what not, 
on what it takes to become an EMT in Montana or Washington or 
someplace else, and that creates a real roadblock, I see. That 
is one example with regards to what we are trying to do to 
provide service in the cross-certification and cross-licensure 
that veterans are faced with.
    I read the papers, too. It is very obvious to me that, 
somehow, in the eyes of the public, we have failed, or not the 
word ``failed.'' It is a quantum leap from the Vietnam days. We 
have recognized the veterans now. It is time for us to say, 
welcome here, and here is something I can do for you.
    An improving job market in the holistic sense will help 
take care of that. The training out there and the certification 
and licensure, it seems to me from visiting with several of you 
in the past several days, it seems to be kind of a point that I 
think is a problem.
    Chairman Murray. Thank you. Thank you very much, both of 
you.
    Senator Burr, did you have any additional questions?
    Senator Burr. No.
    Chairman Murray. Senator Tester?
    Senator Tester. You actually asked them.
    Chairman Murray. All right. Very good.
    Well, I want to thank both of our nominees for being here 
today and for answering our questions, and most importantly, 
thank you for your desire to serve our Nation's veterans. The 
importance of these nominations cannot be stressed enough. It 
is critical to put in place permanent leadership at VETS and 
provide the court with needed support, so Senator Burr, I look 
forward to working with you on moving these nominations in an 
expeditious way.
    With that, this hearing is adjourned.
    [Whereupon, at 11:18 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


            Letter of Support from Charles McGlew, Founder, 
                      Workforce Data Services LLC
From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eae1fceae2c9fee6fbe2efe6fbeaecede8fde8faecfbffe0eaecfaa7eae6e4">[email&#160;protected]</a>
To: VAEmail (Veterans Affairs)
Subject: WebSite Email
Date: Sunday, December 02, 2012 2:44:15 PM

Mr. Charles McGlew
4027 Centennial Drive
Broomfield, CO 80023
                Re: Confirmation Hearing for Keith Kelly
    I strongly encourage the Senate Committee on Veterans' Affairs to 
confirm the appointment of Mr. Keith Kelly to be the Assistant 
Secretary for Veterans Employment and Training within the ETA of the 
USDOL.
    I am a veteran and was an Unemployment Insurance Director for the 
Connecticut DOL for many years. I had the pleasure of working with Mr. 
Kelly in his position as Commissioner of the Montana DOL. In the past 
few years in my position as a workforce development consultant I have 
had many occasions to meet with Mr. Kelly and discuss topics relating 
to workforce development in general and with regard to issues facing 
veterans.
    In my experience Mr. Kelly is an able administrator, has expert 
insight into issues relating to veterans employment, and will provide 
the leadership and expertise to ensure that veterans employment and 
training issues are addressed at the national level and throughout the 
state networks of workforce development agencies.

    Thank you.
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
